/

APPENDIX A

Case 2:19-cv-16990-BRM-JAD Document 23 Filed 06/28/20 Page 1 of 1 PagelD: 256

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

ZOE AJJAHNON,
Plaintiff,
v.

Case No. 2:19-cv-16990-BRM-JAD

ST. JOSEPH’S UNIVERSITY MEDICAL
CENTER and RWJ BARNABAS
HEALTH, INC.,
ORDER
Defendant.

THIS MATTER is opened to this Court by pro se plaintiff Zoe Ajjahnon’s (“Plaintiff’)
qui tam action under the False Claims Act (“FCA”). (ECF No. 1.) Also before the Court are
Crossclaims by co-defendants St. Joseph’s Reginal Medical Center (“St. Joseph’s”) and RWJ
Barnabas Health, Inc. (“Barnabas Health”) (together, “Defendants”) against each other. (ECF Nos.
10,14.) Having reviewed the submissions filed in connection with the motion and having declined
to hold oral argument pursuant to Federal Rule of Civil Procedure 78(b), for the reasons set forth
in the accompanying Opinion and for good cause shown,
IT IS on this 29th day of June 2020,
ORDERED that Plaintiffs Complaint (ECF No. 1) is DISMISSED; and it is further
ORDERED that Defendants’ Crossclaims against each other (ECF Nos. 10, 14) are
DISMISSED.
/s/Brian R. Martinotti
HON. BRIAN R. MARTINOTTI
United States District Judge

APPENDIX B

Case 2:19-cv-16990-BRM-JAD Document 22 Filed 06/28/20 Page 1 of 4 PagelD: 252

NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

ZOE AJJAHNON,
Plaintiff,
v.

Case No. 2:19-cv-16990-BRM-JAD

ST. JOSEPH’S UNIVERSITY MEDICAL
CENTER and RWJ BARNABAS
HEALTH, INC.,
OPINION
Defendant.
Martinotti, District Judge
Before this Court is a qui tarn action filed by pro se plaintiff Zoe Ajjahnon (“Plaintiff’)
under the False Claims Act (“FCA”) (ECF No. 1) and Crossclaims by co-defendants St. Joseph’s
Reginal Medical Center (“St. Joseph’s”) and RWJ Barnabas Health, Inc. (“Barnabas Health”)
(together, “Defendants”) against each other (ECF Nos. 10, 14). Having reviewed the submissions
filed in connection with the Complaint, for the reasons set forth below and for good cause
appearing, Plaintiff’s Complaint is DISMISSED, and Defendants’ Crossclaims are DISMISSED.
I.

Background
This matter stems from Plaintiff s purportedly fabricated diagnosis of bipolar disorder by

practitioners at St. Joseph’s, which Plaintiff alleges was part of a scheme “to falsify billing claims
to government funded healthcare programs” in violation of the FCA. (ECF No. 1 at 2.) St. Joseph’s
is a healthcare service provider located in Paterson, New Jersey. (Id. at 9.)
On December 18, 2018, the Paterson police responded to a call from Plaintiffs mother
claiming Plaintiff threatened her with a knife. (Id. at 10.) Plaintiff, however, “categorically
1

Case 2:19-cv-16990-BRM-JAD Document 22 Filed 06/28/20 Page 2 of 4 PagelD: 253

deniefs]” making this threat. (Id. at 11.) The police gave Plaintiff the option of going to jail or to
the emergency room. (Id.) Plaintiff initially chose to go to jail, but ultimately decided to be
ambulanced to St. Joseph’s upon the recommendation of the police. (Id.) Upon arrival, an
emergency room doctor referred Plaintiff to a social worker who performed a mental health
screening. (Id. at 12.) Plaintiff claims the social worker fabricated a diagnosis of bipolar disorder.
(Id. at 14.)
On December 19, 2018, Plaintiff was admitted to Clara Maas Medical Center (id. at 21), a
short-term care facility that is part of Barnabas Health and located in Belleville, New Jersey (id. at
10). A psychiatrist saw Plaintiff and diagnosed her with “tentative” bipolar disorder “because [of]
no symptomatic history.” (Id. at 24.) Plaintiff refused medication, so the short-term facility utilized
a “2-step program” where an independent doctor reviewed the psychiatrist’s diagnosis to
determine if medication was necessary. (Id.) The independent doctor affirmed the diagnosis. (Id.
at 25.)
Plaintiff brings this action under the FCA alleging St. Joseph’s and Barnabas Health
“recklessly and willfully falsified information ... for involuntary commitment, in fraud and abuse
of government funding for their services.” (Id. at 1.) Specifically, Plaintiff asserts her involuntary
commitment to treatment was “done to falsify billing claims to government funded healthcare
programs.” (Id. at 2.) The United States Government declined to intervene in the action. (ECF No.
7.)
II.

Decision
A. Plaintiff’s FCA Complaint
The FCA imposes penalties on anyone who “knowingly presents ... a false or fraudulent

claim for payment or approval” to the United States Government. 31 U.S.C. § 3729(a)(1)(A).

2

Case 2:19-cv-16990-BRM-JAD Document 22 Filed 06/28/20 Page 3 of 4 PagelD: 254

Further, the FCA punishes any person who “knowingly makes, uses or causes to be made or used,
a false record or statement to get a false or fraudulent claim paid or approved by the Government.”
Id. § 3729(a)(2).
The United States Attorney General or private persons may bring a civil action under the
FCA. Id § 3730. A private litigant bringing an FCA action is called the “relator” or qui tam
plaintiff. See Vermont Agency of Natural Resources v. U.S. ex rel. Stevens, 529 U.S. 765 (2000).
When commencing an FCA action, qui tam plaintiffs file their complaint under seal and give the
government material evidence and the information in their possession. 31 U.S.C. § 3730(b)(2).
After independent investigation, the government may elect to intervene and replace the qui tam
plaintiff in prosecuting the case. Under § 3730(c)(3), a qui tam plaintiff retains the right to proceed
with the claim if the government declines to intervene. However, circuit courts agree that a pro se
litigant may not pursue a qui tam action on behalf of the government. See Gunn v. Credit Suisse
Grp. AG, No. 13-4738, 2015 WL 1787011, at *157 (3d Cir. Apr. 21, 2015) (“While it does not
appear that we have had occasion to address the issue, every circuit that has is in agreement that a
pro se litigant may not pursue a qui tam action on behalf of the Government.”).
The United States Government declined to intervene in Plaintiffs action. (ECF No. 7.)
Therefore, as a pro se litigant bringing an FCA-based complaint, Plaintiff may not pursue a qui
tam action on behalf of the government. See Gunn, 2015 WL 1787011, at *157.
Accordingly, for the reasons stated above, the Complaint is DISMISSED.
B. Defendants’ Crossclaims
Regarding indemnification and contribution of FCA defendants, the Third Circuit has not
addressed the issue. Generally, “FCA defendants cannot pursue claims for indemnification and
contribution that are based on their liability under the FCA.” United States v. Campbell, 2011 U.S.

3

Case 2:19-cv-16990-BRM-JAD Document 22 Filed 06/28/20 Page 4 of 4 PagelD: 255

Dist. LEXSIS 1207, *10 (D.N.J. 2011) (citing United States ex rel. Miller v. Bill Harbert Int’tl
Const., 505 F. Supp. 2d 20, 26 (D.D.C. 2007) (“The unavailability of contribution and
indemnification for a defendant under the [FCA] now seems beyond peradventure.”). District
Courts in this Circuit have used this reasoning in dismissing crossclaims in FCA actions. See
United States ex rel. Salvatore v. Michael Fleming, Civ. A. No. 11-1157, 2015 WL 1384653, at
*1 (W.D. Pa. Mar. 25, 2015) (dismissing defendant’s crossclaim because it depended upon FCA
liability).
The crossclaims for contribution and indemnification by St. Joseph’s against Barnabas
Health (ECF No. 10) and vice versa (ECF No. 14) are based on FCA liability. As a result, the
crossciaims are unavailable. See United States ex rel. Salvatore v. Michael Fleming, Civil Action
No. 11-1157, 2015 WL 1384653, at *1 (W.D. Pa. March 25, 2015) (dismissing defendant’s
crossclaim because it depended upon FCA liability).
Accordingly, for the reasons stated above, Defendants’ Crossclaims are DISMISSED.
C. Conclusion
For the reasons set forth above, Plaintiffs Complaint is DISMISSED. Additionally,
Defendants’ Crossclaims against each other are DISMISSED. An appropriate order will follow.

Date: June 29, 2020

/s/Brian R. Martinotti
HON. BRIAN R. MARTINOTTI
United States District Judge

4

APPENDIX C

Case 2:19-cv-16990-BRM-JAD Document 8 Filed 01/30/20 Page 2 of 4 PagelD: 194

Zoe Ajjahnon
Pro Se Plaintiff
110 Chestnut Ridge Rd.,
Montvale, NJ 07645
973-949-4773

* 7
MU JAN jo p 2: iq '
received

THE UNITED STATES DISTRlCT COURT
FOR THE DISTRICT OF NEW JERSEY
ZOE AJJAHNON,

: Hon. B.R. Martinotti and Hon. J.A. Dickson

PLAINTIFF
:

Civil Action No.: 19-16990 (BRM-JAD)

v.
ST JOSEPH’S UNIVERSITY
MEDICAL CENTER
And
RWJ BARNABAS HEALTH, INC.,

PLAINTIFF’S RESPONSE TO THE
UNITED STATES’ NOTICE TO
DECLINE INTERVENTION THAT IN
PART SUGGESTS TO THE COURT
DISMISSAL OF THIS FALSE CLAIMS
ACT CLAIMS

DEFENDANTS

This Response concerns itself solely with the United States’ “suggestion” to dismiss this
action. The Government founds this suggestion on its statement of, “[a] rule [that] a pro
se relator cannot represent the United States in a False Claims Action” and proffers a
series of non-precedential cases that reason preclusion of a pro se qui tarn action on
behalf of the Government.

The Government’s advance to the Court is frivolous and baseless whereas even cursory
reading of this action categorically denies that this pro se litigant is in anyway seeking to
remedy the damages sustained by the Government. It is nowhere to be found that instant
matter is proceeding on behalf of the Government.

,/
'/

Case 2:19-cv-16990-BRM-JAD Document 8 Filed 01/30/20 Page 3 of 4 PagelD: 195

The questions of False Claims Act violations by defendants is irrefutably substantiated in
this action (31 U.S.C. § 3730 (b) (3)). See, Internet Source FCA Primer, “A person
does not violate the False Claims Act by submitting a false claim to the government; to
violate the FCA a person must have submitted, or caused the submission of, the false
claim (or made a false statement or record) with knowledge of the falsity.” The
fraudulent claims of these violations made on this pro se plaintiff are used to calculate
damage as under 31 U.S.C §§ 3729 - 3733 provisions. (The Action at Relief Sought pg.
71 et. seq.)

Plaintiff under the provisions of 28 U.S. Code § 1654 may plead her own cause. The
Government’ suggestion to dismiss is groundless.
Respectfully submitted,
ZOE AJJAHNON, PRO SE PLAINTIFF

By,

z,

7-7

Z0E XJJAHNON/Pro Se Plaintiff

Case 2:19-cv-16990-BRM-JAD Document 8 Filed 01/30/20 Page 1 of 4 PagelD: 193

Pro Se, Plaintiff
ZOE AJJAHNON, Pro Se
110 Chestnut Ridge Rd.,
Montvale, NJ 07645
Ph.: 973-949-4773
Email:zoeloi@aol.com

W3 jam jq
18th January, 2020

OFFICE OF THE CLERK
U. S. DISTRICT COURT DISTRICT OF NEW JERSEY NEWARK
Martin Luther King Jr. Federal Building
50 Walnut St., Rm. 4015
Newark, N.J. 07101
Via Regular Mail
RE.: AJJAHNON v. ST. JOSEPH’S UNIVERSITY MEDICAL CENTRE, et al
CASE NUMBER: 2:19-CV-16990-BRM-JAD
Dear Court,
Enclosed is Plaintiff s Response to the Government’ 2nd January 2020 “Suggestion” to
dismiss.
A courtesy copy was concurrently mailed to the US,
CRAIG CARPENITO
United States Attorney
ANDREW A. CAFFERY, III
Assistant U.S. Attorney
970 Broad Street, Suite 700
Newark, NJ 07102
And by email: andrew.cafferv@usdoj.gov
Sincerely '

C:.

Zoe Ajjahrlot^ Plaintiff

r

Case 2:19-cv-16990-BRM-JAD Document 8 Filed 01/30/2Q^R^ge 4 of 4 PagelD: 196
\
'\ ^

s

</5 r—4 —

>1

• >v — .

)

APPENDIX D

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
ZOEAJJAHNON,
Plaintiff

V.

SUMMONS IN A CIVIL CASE

ST. JOSEPH'S UNIVERSITY MEDICAL
CENTER, ET AL.,
Defendant
CASE
NUMBER: 2:19-CV-l6990-BRM-JAD
TO: (Name and address of Defendant):

u n . Oc ca, j-<3
10 ^

v v\

ice, V Cen-cr

<ee4-

A lawsuit has been filed against you.
Withm 2 1 days after service of this summons on you (not counting the day you received it)
I
^ :f>'ou are the United States or a United States Agency, or an office or employee of
the United States described in Fed. R. civ. P. 12 (a)(2) or (3) — you must serve on the plaintiff
an answer to the attached complaint or a motion under rule 12 of the Federal Rules of Civil
Procedure. The answer or motion must be served on the plaintiff or plaintiff s attorney, whose
name and address are:

Lf >'ou fail to respond, judgment by default will be entered against you for the relief
demanded in the complaint. You also must file your answer or motion with the court.

s/ WILLIAM T. WALSH
CLERK

ISSUED ON 2019-12-19 11:53:05, Clerk
USDC NJD

A.

'A- Sv

RETURN OF SERVICE
Service of the Summons and complaint was made by DATE
met l)
NAME OF SERVER (PRIST)
TITLE
v- CU i zf~
^i. fftnvva iCN

feb 0.

Check one box below to indicate appropriate method ofservice

Served personally upon the defendant. Place where served:

'Vtr.i ui

sJ-- ig\c,vSj

XT

Lj *-e^1 c°pies thereof at the defendant's dwelling house or usual place of abode with a person of suitable a°e
discretion then residing therein.

Phvern arcff

- Name of person \\ ith whom the summons and complaint v.ere left:
i*

r*

Returned unexecuted:

l-' Other (specify) :

STATEMENT OF SERVICE FEES
TRAVEL

SERVICES

TOTAL
DECLARATION OF SERVER

I declare under penalty of perjury under the laws of the United States of America that the forei'oin«
information
“ =
contained in the Return of Service and Statement of Service Pees is true and correct.

Executed on

6?-7- /ozo
Date

j3< (Unn^'i
Signature of Server
UnFtcd States Marshals Service
_____________ lJr.Z
federal BM-- iS..CQiirfliouse
r
Address ofServq£ ',7r'"”1
Kowu iou9
T'c '“"'L M 07JU2-JS06

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
ZOE AJJAHNON,
Plaintiff

V.

SUMMONS IN A CIVIL CASE

ST. JOSEPH'S UNIVERSITY MEDICAL
CENTER , ET AL.,
Defendant
CASE
NUMBER: 2:19-CV-16990-BRM-JAD
TO: (Name and address of Defendant):
r\

U LO o oA
'lSO cSlJl
cOeSV-os-r aoje'

rv^o m

fccA

New UM

V4 > \ 1 s.

S.w

A lawsuit has been filed against you.
Within 2 1 days after service of this summons on you (not counting the day you received it)
i S • jSs ify°u are
Un'le<I States or a United States Agency, or an office or employee of
the United States described in Fed. R. civ. P. 12 (a)(2) or (3) — you must serve on the plaintiff
an answer to the attached complaint or a motion under rule 12 of the Federal Rules of Civil
Procedure. The answer or motion must be served on the plaintiff or plaintiffs attorney whose
name and address are:

If you fail to respond, judgment by default will be entered against you for the relief
demanded in the complaint. You also must file your answer or motion with the court.

s/ WILLIAM T. WALSH
CLERK

ISSUED ON 2019-12-19 11:53:05, Clerk
USDC NJD

.A

%

RETURN OF SERVICE
Service of the Sammons and complaint was made by DATE
mod)
NAME OF SERVER (PRINT)
TITLE

feh ' *7.

Check one box below to indicate appropriate method ofservice

u Served personally upon the defendant. Place where served:

C)\A

US

jj Left copies thereof at the defendant's dwelling house or usual place of abode with a person of suitable aae
— and
discretion then residing therein.
u Name-of person with whom the summons and complaint were left: M A—1 Retunied unexecuted:__

\ (X

\

ft),

_____________________________________________

— Other (specify) :

STATEMENT OF SERVICE FEES
SERVICES

TRAVEL.

TOTAL.

DECLARATION OF SERVER
1 declare under penalty of perjury under the laws of the United States of America that the foregoing
information
contained in the Return of Service and Statement of Service Fees is true and correct.

Executed on

hiz

Date

X
Signature of Server
,»States Marshals Serv ice
Address ofServer'-'?. -Ir. Federal Bids & Courlhu use
Room 2009
:-’506

2/11/2020

Activity in Case 2:19-cv-16990-BRM-JAD AJJAHNON v. ST. JOSEPH'S UNIVERSITY MEDICAL CENTER et al Summons Returned Exe..

From: njdefiling <njdefiling@njd.uscourts.gov>
To: njdefiling <njdefiling@njd.uscourts.gov>
Subject: Activity in Case 2:19-cv-16990-BRM-JAD AJJAHNON v. ST. JOSEPH'S UNIVERSITY MEDICAL CENTER et al Summons
Returned Executed
Date: Tue, Feb 11, 2020 9:30 am

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this
e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free electronic copy of
all documents filed electronically, if receipt is required by law or directed by the filer. PACER access fees
apply to all other users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
District of New Jersey [LIVE]
Notice of Electronic Filing
The following transaction was entered on 2/11/2020 at 9:30 AM EST and filed on 2/10/2020
Case Name:
AJJAHNON v. ST. JOSEPH’S UNIVERSITY MEDICAL CENTER et al
Case Number:
2:19-cv-l 6990-BRM-.TAD
Filer:
ZOE AJJAHNON
Document Number: 9
Docket Text:
SUMMONS Returned Executed by ZOE AJJAHNON. Saint Joseph's University Hospital and
Robert Wood Johnson-Barnabas Health were served by the U.S. Marshall on 2/7/2020.
(Attachments: # (1) 285 Receipt and Return)(bt,)
2:19-cv-l6990-BRM-JAD Notice has been electronically mailed to:
ZOE AJJAHNON

zoeloi@aol.com

2:19-cv-l6990-BRM-JAD Notice has been sent by regular U.S. Mail:
The following document(s) are associated with this transaction:
Document description:
Original filename:
Electronic document Stamp:

Document description:
Original filename:
Electronic document Stamp:

Main Document n/a [STAMP dcecfStamp_ID=l 046708974 [Date=2/11/2020] [FileNumber=13415883- 0]
https://mail.aol.com/webmall-std/en-us/printMessage

-fflk

1/2

APPENDIX E

Case 2:19-cv-16990-BRM-JAD Document 10 Filed 02/27/20 Page 5 of 5 PagelD: 207

CERTIFICATION PURSUANT TO L. CIV. RULE 11.2
The undersigned certifies that defendant is unaware as to whether the
controversy is the subject of any other action pending in any Court, arbitration, or
administrative proceeding.
I hereby certify that the within pleading was served within the time period
allowed by Fed. R. Civ. P. 12 and all extensions thereof.
I hereby certify that a copy of the within pleading was served upon all counsel
of record.
I further certify that to the best of my knowledge at this time there are no other
pending actions involving the subject matter and no parties who should be joined in the
action.

/

KROMPJER & TAMN, L.L.C.
Attorneys for Defendant
St. Joseph's University Medical
Cerner
.

By:
JEFFREY A. KRQMPIER, ESQ
Dated: February 26, 2020

' ife

^

APPENDIX F

>

*

M
5C AJiiMJT ST
■ EjjP&ViRK NJ 07102
&
6464730
%
'

\

k T iu Dti >
SBateh •*-. .'<>300 >

Mwm

i-y

mu

■■r <3*
JHmm

Y

m

DE

APPR
VISA
A *.........."4242

%■ ¥

083211

Manual Chip

&
AMOUNT

*.v

0m0i;IS77

APPRO v;ED
CUSIfM-f' COPY

U

Court Na#e: USBC, District of New Jersey
Divisions 2
Receipt fluster: NEU042318
Cashier IDs ipsbard
Transaction Date: 83/89/E0d0
Payer Nase: ZOEY AJJAHONGN
RECORD IN PAPER FORNfiT
For: ZOEY ftjJAH0H0H
$2.50
Assount;
CREDIT CARD
Asst Tendered: $2.58

3 ■■■■K-i

$2.50

$2,58
Total Due:
Total Tendered: $2=58
$8,8i
Change A»ts
2 19 CM 16390 DOC 10
"Only when bank clears the check, _
ssoney order, or verifies credit of
funds is the fee or de&t officially
paid or discharged. A $53 fee sill
be charged for a returned check."

APPENDIX G

Case 2:19-cv-16990-BRM-JAD Document 11 Filed 03/20/20 Page 1 of 6 PagelD: 208

Cl rrifi

Zoe Ajjahnon
Pro Se Plaintiff
110 Chestnut Ridge Rd.,
Montvale, NJ 07645
973-949-4773

MAP 20 p 3-‘ U S

THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
ZOE AJJAHNON,
PLAINTIFF
CASE NO.: 2:19 -CV-16990-BRD-JAD
v.

Civil Action

ST JOSEPH’S UNIVERSITY
ffi&HS'WER
MEDTCAL CENTER
And
RWJ BARNABAS HEALTH, INC.,

RESPONSE TO DEFENDANT, ST. JOSEPH’S
AND MOTION FOR SUMMARY JUDGMENT

DEFENDANTS

Defendant, St. Joseph’s University Medical Center proffers its defense to the Court in similar
conduct of the False Claims Act violations that ground the cause for this action. Under the
provisions of the False Claims Act 31 U.S.C. $$ 3729-3733. and equal and due process rights
guards of 42 U.S.C.

1981 and 1983., plaintiff brought this action against defendant only to

be answered in like fashion of false claims. St. Joseph’s University Medical Center, begins its
defense by certifying to the court that as required by Fed. R.Civ. P. Rule 5, it served on plaintiff
the pleadings of its Answer. This is untrue, wherefore, pursuant, Fed. R. Civ. P. Rule 11(a) (b),
N-J Court Rules, R. l:4-8(a)(4), and 8 U.S.C. section 1324c. fal U 1 plaintiff moves for

Vase z:iy-cv-ibyyo-BKM-JAD Document 11 Filed 03/20/20 Page 2 of 6 PagelD: 209

defendant’s Answer to be stricken from the record. Attached is a copy of the only
communication from defendant, naming its legal representation. As shown it was sent via
certified and regular mail. Plaintiff received both mailing. A subsequent telephone message to
the law firm in pursuit of the Answer was ignored. Plaintiff requested and was mailed
defendant’s Feb. 26th 2020 Answer from the court, post dated March 9th 2020.

This defendant, the Complaint’s screening services provider, failed in obligations of N.J.A.C. 10:
—^ ^ as under the authority of N.J.S.A. 30:4-27.1 et. sea, where the state gives the standard for
screening services. The Complaint substantiates each and every claim of this defendant’s
violations of these statutory obligations. Where these laws allow remedy for sustained damages
secondary defendant’s illegalities, the Complaint with its substantiating Exhibits support the sum
total damage judgment demand and the special relief of assigning a task force and revising
current services guides to ensure defendant’s compliance with NJ regulations, in the interests of
public safety.

Where the Answer worries that the issues of this action are subject of any other matter before a
Court, arbitration or administrative proceeding, plaintiff herein declares, they are not - wholly or
in part. Plaintiff further refutes defendant s bald assertion that some imagined (whereas none is
cited) statute of limitation bars plaintiff’s claims; and further takes issue with this defendant’s
implied restrictions on the damage total in its entirety. Not only does defendant’ citation for
limiting the damage award actually disallows this limitation, holding; ‘ (any] immunity from
liability (defendant might enjoy under this provision| does not extend to the (healthcare service
provider] hospital/corporation or its agent in its service for acts of gross negligence I/intentional

2

Case 2:19-cv-16990-BRM-JAD Document 11 Filed 03/20/20 Page 3 of 6 PagelD: 210

tort] as supported in instant Complaint. This Response denies that the principal services of the
screening service’ psychiatrist as regulated by NJ.S.A. 30:4-27,1 et.seq. and N.J. Court Rule
4/74£7_are somehow peripheral (third party) to the legal requirements of the screening services of
defendant, St Joseph’s as defined under N.J. statutes, and stated in N.J.A.C. 10: 31-1,2 .
Restrictions on recovery of the damage total in its entirety is further denied under Fed. R, Civ, P,
Rules 11 and 5 that removes defendant’s improper pleadings from the record. Nolte v. Nannino.
107 N.J.L. 462,154 A.L. 831 (1931).

WHEREFORE, plaintiff moves for summary judgment of the damage total of $3,442,978.40 in
its entirety from defendant, St. Joseph’s University Medical Center.

Defendant’s Answer properly puts as ’separate’, defenses for the two defendants of this suit. Co
defendant RWJ Barnabas filed no Answer to the Complaint. This defendant did not dispute the
facts, defaulted, plaintiff therefore is entitled to judgment as a matter of law, for the full relief
sought. Fed. R. Civ. P. Rule 56 (a).

WHEREFORE, under Fed. R. Civ. P. Rule 56 plaintiff moves for summary judgment of
$4,695,190.00 in its entirety from defendant, RWJ Barnabas Health, Inc.

PROOF OF SERVICE

I hereby certify that a copy of this Response was served upon defendant, St Joseph’s University

3

QL

Case 2:19-cv-l6990-BRM-JAD Document 11 Filed 03/20/20 Page 4 of 6 PagelD: 211

Medical Center at, KROMPIER & TAMN, LLC., 8 Wood Hollow Road, Suite 202 Parsippany,
N J. 07054, Attorneys for Defendant, VIA CERTIFIED MAIL & EMAIL.
jkrompier@krompiertamn.com, and on defendant, RWJ Barnabas Health, Inc. at, Robert Wood
Johnson Barnabas Health, 950 Old Short Hills Road, West Orange, N.J. 07052 VIA CERTIFIED
MAIL.

I declare under penalty of perjury that the foregoing is true and correct.

Respectfully submitted,

ZOE AJJAHNON, PRO SE

By/&r^.

Zoe Ajjahnon, Pro Se Plaintiff
DATED: March, 17th 2020

Case 2:19-cv-16990-BRM-JAD Document 11 Filed 03/20/20 Page 5 of 6 PagelD: 212
> V

JASON M.ALTSCHUL^
JEFFREY A. KROMPIER
Member NJ

NY Bars

Member NJ & PA Ban J_

Certified Civil Trial Attorney
by NJ Supreme Court

IRISH-LEWIS
VALERIE N. KROMPIER

Certified Civil Trial Advocate
by National Board of TrialAdvocacy

KROMPIER & TAMN

Certified Civil Pretrial Practice Advocate
by National Board of
Civil Pretrial Practice Advocacy

LL.C.

Counsellors at Law
www.krompiertamn.com

MALLORY S.KUSCHAN
Member NJ Si NY Ban

KEIRINP. CLARE
Member NJ Se NY Ban

RICHARD J. TAMN

KISHAJ.PINNOCK

Member NJ& PA Ban

February 25, 2020
VIA REGULAR & CERTIFIED MAIL
PERSONAL & CONFIDENTIAL
Ms. Zoe Ajjahnon
110 Chestnut Ridge Road
Montvale, New Jersey 07645
RE:

AJJAHNON v. ST. JOSEPH'S UNIVERSITY MED. CTR.
CIVIL ACTION NO.:2:17-cv-16990-BRM-JAD
OUR FILE NO.: SJH-523

Dear Ms. Ajjahnon:
Our firm has been assigned to represent the interests of St. Joseph's University
Medical Center in connection with the above matter''Please note your file accordingly
and direct all communications to my attention r
Thank you for your cooperation. /
/
/

/

y^ery truly yours,

JEFFREY A. KROMPIER
jkrompier@krompiertamn.com
JAK:rj

Phone: 973.428.1000 • Fax: 973.428.1088 • Email: ktlaw@krompiertamn.com
8 WOOD HOLLOW ROAD • SUITE 202 • PARSIPPANY • NJ 070S4
30 years ofservice to the medical, dental and nursing DrottMons

CO

r—I
CM

Q
D)

cd

^

From:

CD

lb £ HTA a hn/) m ?
/

CD

9m dTi^-Yy/c

^/

•

•••
^ *. ViA’* *C .*•**' * ij

cd
Q.

'V*.

v**. tv.

Z7Mm :2£m *

^^4

/

Sfeww1
X ^ , NJ

E PAID

/

/sr&ez

CD
O)

.. .

''i :’•• •

fEis&E&d/'K

o

"

w -mmms

<D

£5

p ra us

MAR 17.20
AMOUNY

,.«s

'•T

o

$4.25

1000

>1

07101

R2304E105219-80

hi- # ;
y

jp-* i'”'

□□an ba3b □bit
.... 1«'~ ™1"”
"SS'.S™ ”

CERTIFIED Mill""
CD

U

P*
flAI^T 'j

E'."
s.
t.

1

i

4r

LVOJ

/

2

E
D

1

O

o

D

To:

Q

7

7ai^ ltj4a 0000 bfl3b

□ bib

I ReadyQost
CO

Document

1

>

CJ
I
CD

Mailer
0'7i02^;3S':S CO 14

r—\

CM
CD
C/)

(G

U
4

*

>
1

<

l

/J&i2ri2/jMripXI/T
flhriin
Vc?

S.7s //(&/y?M'$yt~

/SS^Sife /D /
r„.

! f .♦

f; ?M ^ sr

?t ‘f j >' r rTf

/
?

I

/
?

I

Mil

f

•J/
/

APPENDIX H

*!■

Zoe Ajjahnon
Pro Se Plaintiff
110 Chestnut Ridge Rd.,
Montvale, NJ 07645
973-949-4773
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
ZOE AJJAHNON,
PLAINTIFF
Civil Action No.:
v.
ST JOSEPH’S UNIVERSITY
MEDICAL CENTER
And
RWJ BARNABAS HEALTH, INC.,

COMPLAINT
and
Jury Demand

DEFENDANTS

Plaintiff, Zoe Ajjahnon of 110 Chestnut Ridge Rd., Montvale , Bergen County, New
Jersey brings this complaint against defendants, St. Joseph’s Regional Medical Center,
located at 703 Main Street, Paterson, Passaic County, New Jersey, Ph.: 973-754-2000
and Robert Wood Johnson (RWJ) Barnabas Health, Inc. that gives variably two
corporate addresses, 950 Old Short Hills Road, West Orange, Essex County, New Jersey,
Ph.: 973-322-4328 and 2 Crescent Place, Oceanport, Monmouth County, New Jersey,
Ph.:732-923-8000, pursuant the provisions of the False Claims Act, 31U.S.C. $$37293733 and civil liberties guards of 42 U.S.C. $.$1981 and 1983.

TABLE OF CONTENTS
JURISDICTION
PRELIMINARY STATEMENT
1.

Factual Background and History of the Commitment Order
A.

The Parties

Page
1
1
9
9

B.

Background of Certification from the Screening Service

10

C.

The Screening Service’s Certificate Per Se

14

D.

The Certificate from the Short Term Care Facility Per Se

E.

Violations of Governing State Laws at the Short Term Care
Facility, As Matter of Fact.................................................

24

Pre-Action Steps and the Need for This Action:
Indicated Amendments to Current NJ Regulations
and Compliance Guides........................................

25

F.

1. Wherefore the Complaint Proposes the Following
ARGUMENT

21

27
31

I.

FALSE CLAIMS ACTS OF INTENTIONAL SIGNIFICANT
INCOMPETENCE OF MALICIOUS MEDICAL MALPRACTICE
CONSTITUTES SUBSTANTIAL VIOLATIONS OF PROCEDURAL AND
SUBSTANTIVE DUE PROCESS LAWS AT ST. JOSEPH’S MEDICAL
CENTER, THE SCREENING FACILITY. THIS LED TO THE FALSE
INCARCERATION OF PLAINTIFF AT AN INVOLUNTARY
COMMITMENT FACILITY AND GROUNDS PLAINTIFF’S LIABILITY
CLAIMS UNDER THE FEDERAL FALSE CLAIMS ACT PROVISIONS
OF31 U.S.C. § §3729- 3733 AND CONSTITUIONALLY PROTECTED
CIVIL RIGHTS OF42 U.S. C. §§ 1981 and 1983
31

II.

DEFENDANT RWJ BARNABAS HEALTH CONTINUES THE HEALTH
CARE PROVIDER’S PRACTICE OF FRAUDULENTLY OBTAINING
MONEY FROM GOVERNMENT FUNDED PROGRAMS AT ITS SHORT

TERM CARE FACILITY OF THIS COMPLAINT, CLARA MAASS.
DEFENDANT’S FALSE CLAIMS CONDUCT IS SUBSTANTIAL FOR
THE SERVICE’ VIOLATIONS OF CIVIL RIGHTS, DISMISSAL OF DUE
PROCESS, PERPETRATIONOF INTENTIONAL MALICIOUS MEDICAL
MALPRACTICE OF A FALSE DIAGNOSIS FOR THE PURPOSE OF
FORCING MEDICATION, SUBSEQUENTLY FORCED MEDICATION,
FALSE IMPRISONMENT, AND VIOLATED OTHER LAWS SUCH AS
DELIBERATELY PREVENTING PLAINTIFF FROM SPEAKING TO
THE COURT. DEFENDANT MADE BILLING CLAIMS TO PLAINTIFF
AND GOVERNMENT FUNDED PROGRAMS FOR THESE FRAUDS PER
SE AND FOR THE TIME OR DURATION OF THE FRAUDS , I.E. EACH
DAY PLAINTIFF WAS SUBJECT TO THESE FALSE CLAIMS ACTIONS
AT THE FACILITY
46
CONCLUDING STATEMENT

70

RELIEF SOUGHT

71

1.

Damage Total

.73

a. FROM St. Joseph’s, Screening Service

73

b. FROM RWJ Barnabas Health, Inc

75

c. Damage total sum

77

JUDGMENT DEMAND

77

TABLE OF AUTHORITIES
Pages
CASES
Addinston v. Texas. 441 U.S. 418; 99 S. Ct. 1804; 60 L. Ed.,2d 323 (1979)

32 & 40

D C. 281 N.J. Super. 102, 656 A.2d 861 (A.D. 1995) reversed 146 N.J. 31,679 A. 2d 634
(1996)
32 & 55
Matter of Commitment D.M. supra 313 N.J. Super, at 450
u

31

DiGiovanini v. Pessel 104 N.J. Super 550, 250 A.2d 756 (A.D. 1969) affirmed in part,
reversed in part 55 N.J. 188 [(1970)], 260 A.2d 510
41 &53
Fair Oaks Hospital v. Pocrass. 266 N.J. Super, 140,628 A. 2d 829
(L.1993)...........................................................................................

45, 52, & 67

Griffin v. Breckenrid.ee. 403 U.S. 88 (1971)

50

Hammond v. Northland Counselins Center. 218 F.3d 866 (8th Cir. 2000)

38

J.R. 390 N.J. Super 523,916 A.2d 463 (A.D. 2007)............................

33

Lugar v. Edmondson Oil Co.. Inc.. 457 U.S. 922 (1982).......................

50

MG. 331 N.J. Super 365, 751 A. 2d 1101 (A.D. 2000)

35, 37, & 55

MM, 384 N.J. Super 313, 894 A.2d 1158 (A.D. 2006)

32, 49, & 60

Parrat v. Taylor, 451 U.S. 527, 535-36, 101 S.Ct. 1908, 1912-1913 68 L.Ed. 2d 420
(1981)...........................................................................................................................

59

Plain v. Flicker D.N. J. 1986 F. Supp. 898

49

Poe v. Ullman. 367 U.S. 497, 540 541 (1961)

46

SX.94 N.J. 128, 462 A. 2d 1252 (1983)..........................................

58

Commitment ofS. W„ 158 N.J. Super. 22 (App. Div. 1978)............

39

Smith v. Wade. 461 U.S. 30, 56 (1983)............................................

38

State v. Krol 68 N.J. 236, 344 A.2d 289 (1975)..............................

55

State Farm Mutual Ins. Co. v. Campbell. 538 U.S. 408, 425 (2003)

72

West v. Atkins. 487 U.S. 42 (1988).................................................

50

Zinermon v. Burch. 494 U.S. 113 (1990)

38 & 59

U. S. CODES AND N..T. STATUTES

18U.S.C. § 1621(2)

,40
in

3

18 U.S.C. § 242

50,59

25 CFR § 11.404

.40

28 U.S.C. §§ 1331 and 1332

1

31 U.S.C. §§ 3729-3733

1,40, 45,53

31 U.S.C. § 3729 et.seq

.2, 27, 40, 72, 73

31U.S.C. § 3729 (a)(l)(A)(B)

2, 7, 33, 44

31 U.S.C. § 3730(b)(1)

1

31 U.S.C. § 3732(b)

33

31 U.S. Code § 3802

57

31 U.S.C. § 3802(a)(1) (D)(B)(C)

71

34 U.S.C. § 10651(a)(7)(A)

14

42 U.S.C. §§1981 and 1983

1,31,37,38, 70, 72, 73

42 U.S.C. § 1983

35, 49, 59

42 U.S.C. §1981 (c)

50

42 U.S.C. § 1981A (b)(1)

38

42 U.S.C. § 290bb-31

5

42 U.S.C. § 1320a-7b(b)

28

42 U.S.C. § 1320a-7b(b)(2)

,44

42 U.S.C. § 9501(l)(A)(i)(ii)

59

Torts 2d § 35 (1965)

40, 45, 52

N.J.S.A. 30:4-27.1 et seq.

31,33,44, 48

N.J.S.A. 4D-let seq,

33, 44, 53
IV

New Jersey Code § 2A:32Csections 1 through 15 and sections 17 and 18
[C.2A:32C-1 through C.2A:32C-17] or the New Jersey False Claims Act (NJFCA)
........................................................................................................... 33, 40, 44, 53, 72, 73
N.J.S.A. 30:4-27.2b

30

N.J.S.A. 30:4-27.1 lc

60

N.J.S.A. 30: 4-27.2r

5, 14, 34, 42, 53, 58

N.J.S.A. 30: 4-27.2(h)(i)

5, 14, 32, 34, 35

N.J.S.A. 30:4-27.2i, h, & m

55

N.J.S.A. 30:4-27.2y

14,41

N.J.S.A. 30:4-27.1 Id (b)(8)

25

N.J.S.A. 30:4-27.1 Id

61

NJ Rev Stat § 2C:13-3 (2013)

40

N.J. Code § 2A:32C-17

40

N.J. Code § 2A:32C-3

51

N.J.S.A. §§ 45:1 - 21(b) and (o) NJ’ Uniform Enforcement Act (UEA)

51,72

L.1965, c. 59, s. 10. Amended by L.1975, c. 85, s. 2, eff. May 7, 1975
/N.J.S.A. 30:4-24.2 ..............................................................................

59

N.J.S.A.30:4-24.2g (1)

60

N.J.S.A. 30: 4-24.2d (1)

61

N.J.S.A. 30:4-24.2c

61

N.J.S. 2C:21-4.2 & 4.3 and N.J.S. 2C:51-5 of NJ Health Care Claims Fraud Act ....44, 65
N.J. Code §17 P.L. 1968, C. 30: 4D-17

71

N.J. Code §30:4D-17(e)(3)

.71

N.J. Statute § 30:4D-17(a)-(d)

,44, 71
v

N.J.S.A. §§56:8-2; 56:8-3.1; 56:8-13; 56:8-14 and 56:8-15

72

RULES
New Jersey Court Rule: 4:74-7(b)

5,31,33,36, 39, 48, 49

MISCELLANEOUS
Congress’ 2005 Deficit Reduction Act

.28, 50

Resources Referred
THE ‘INVOLUNTARY CIVIL COMMITMENTS RESOURCE BINDER ’ - OF NEW
JERSEY COURTS.......................................... ........................................

.49

Harrison’s Principles ofInternal Medicine, 16 th Edition

56

International Classification of Diagnosis 10th Revision

56

EXHIBITS APPENDED
St. Joseph’ Patient Relations Complaint Response (3/25/’ 19)

Ex. 1

Complainant’ email to St. Joseph’s (3/12/’19).......................

Ex. 2

Paterson Police Department Report (12/18/’ 18)...................

Ex. 3

St. Joseph’ - the Screening Service Certificate (12/19/’ 18)__

Ex. 4a

St. Joseph’s Screening Assessment Consensual Admission Document (12/19/’18)..Ex. 4b
Plaintiffs Complaint to NJ Dept, of Health (3/9/’ 19)....................................

Ex. 5

RWJ Barnabas Health’ Short Term Care Facility Certificate (12/20/18)........

Ex. 6

The Temporary Order for Involuntary Commitment to Treatment (12/22/’18)........... Ex. 7
Defendants’ FCA Charges.
St. Joseph’ Health (3/14/’19)

($378.66) Ex. 8i
vi

St. Joseph’s Health (3/14/’19)

($487.62) Ex. 8ii

St. Joseph’s Regional Medical Center (3/25/’19)

($5,401.00) Ex. 8iii

Imaging Subspecialists of North Jersey (2/25/’19

($30.00) Ex.9

St. Joseph’s Healthcare, Inc. (12/28/’ 18)

($167.00) Ex.10

Pulse Medical Transportation (12/19/’18)

($135.00) Ex.ll

BHMG - CMMC Behavioral (1/14/’19)

($524.00) Ex. 12 a

BHMG - CMMC Behavioral (2/11/’ 19)

($2,446.00) Ex. 12 b

BHMG - CMMC Behavioral (4/08/’ 19)

($2,650.00) Ex. 12 c

RIVERBANK INPT MED ASSOC, LLC (2/03/’19)
RWJ Barnabas Health’s STCF, Clara Maass (3/14/’19)
LIVINGSTON PATHOLOGY ASSOCIATE (2/21/’19)

vn

($445.00) Ex. 13
($44,478.00) Ex. 14
($60.00) Ex.15

JURISDICTION
Jurisdiction is invoked under 28 U.S.C. § 1331 as to the federal question of False Claims
Act claims defined in 31 U.S.C. SS 3729-3733.

Additionally at issue is the claim of civil rights violations by defendants under 42 U.S.C.
§§ 1981 and 1983. The facts establishing this complaint substantiate deprivation of civil
rights by both defendants.

The Court further recognizes jurisdiction under 28 U.S.C. § 1332 for the amount-incontroversy allowance that exceeds the set, $75,000.
PRELIM INARY STATEMENT
Pursuant 31 U.S.C. § 3730 (b)(1) the US Government complaining of defendants St.
Joseph’s Regional Medical Center, a screening services provider and RWJ Barnabas
Health, Inc., a short term care facility services provider states that, on December 18th 19th 2018, defendant, St. Joseph’s Regional Medical Center, the screening services
provider, recklessly and willfully falsified information on a certification to the court,
defendant withheld information , defendant also deliberately fabricated information , and
defendant falsified patient record of a fabricated diagnosis, in pursuit of a court order for
involuntary commitment, in fraud and abuse of government funding for their services;
and from 19th December 2018 - 10th January 2019 defendant, RWJ Barnabas Health,
Inc., the short term care facility perpetrated acts of falsification of information to the
court, falsification of patient medical record, the willful and reckless fabrication of a
diagnosis for an unnecessary medical treatment and length of stay at defendant’s short
term care facility, Clara Maass, in defrauding the government of thousands of dollars.
1

These pleadings argue a case of False Claims violations substantiated in blatant fraud and
abuse of statutory regulations for health care services at St. Joseph’s Regional Medical
Center, a screening services provider (hereafter, the screening service) and RWJ
Barnabas Health, Inc. whose facility, Clara Maass was the short term care facility
services provider (hereafter, the Short Term Care Facility (STCF) in this matter where
abject neglect, gross incompetence of malicious medical malpractice in the assessment of
need for involuntary commitment to treatment and malicious medical malpractice in that
treatment were actions done to falsify billing claims to government funded healthcare
programs by instant healthcare providers.

Defendants’ actions of falsification of statements to the court for a court order for
involuntary commitment is a matter of false statements, perjured certifications, fabricated
diagnoses, false imprisonment, false claims conduct for forced medication, violations of
plaintiff s civil rights in a questionable so-called 2-step, and undue stay at the STCF.
Plaintiff further seeks damages from defendants for the fraudulent billing claims
generated from their respective violations under the provisions of the Federal False
Claims Act 31U.S.C. § 3729 et.seq.
Where 31 U.S. C. § 3729 (a)(1) reads,
any person who—
(A)
knowingly presents, or causes to be presented, a false or fraudulent claim for
payment or approval;
(B)
knowingly makes, uses, or causes to be made or used, a false record or
statement material to a false or fraudulent claim;

2

plaintiff complains of defendants’ liability for unlawful conduct of deliberate falsification
of claims to receive government funds respecting institution of involuntary commitment,
and that these service providers’ defiance of US laws prohibiting fraudulent billing
claims were substantially abused in instant matter by both defendants for the period 18th
December 2018 - 10th January 2019. The complaint shows that as a matter of public
laws, defendants’ False Claims actions are further egregious for causing public safety
risks.

In specific case, defendants’ violations resulted in false imprisonment secondary two
fraudulent certification of a falsified medical record. The falsified record purported an
illness based on symptoms that plaintiff has no, and has never had any, history of. A false
diagnosis was also the claim for medically inappropriate / unnecessary medication
forcefully administered at the short term care facility.

Violations with abandon sums the uninhibited defiance of court regulations and mandates
at instant healthcare services providers. False Claims acts substantiated in conducts of
malicious medical malpractice at both defendants inherent in the screening facility’s
deliberate perjure of a certificate to the court, that generated, among other false claims, a
bill for a psychiatrist’/ physician’s evaluation that was never done; and, in addition to its
own spurious certificate to the court, the STCF’ denial of plaintiffs right to appear in
court to contest the service’ claim of the need for certain drugs and a particularly
unscrupulous malicious falsified diagnosis to claim mental incompetence are a part of the
defendants’ malicious malpractice in blatant False Claims activities.
3

This matter of False Claims in substantial malicious malpractice at RWJ Barnabas
Health’ STCF, Clara Maass, was facilitated by its so-called, “2-step program” a
procedure where the patient is denied the right to refuse medication based in this
defendant’s deliberate abuse of its service in equating mental illness to mental
incompetence. Defendant herein knowingly fabricated a diagnosis in order force
medication. This allowed this skilled False Claims actor (RWJ Barnabas has a history of
hundreds of millions of dollars paid to the government to settle False claims) to get
)
government money for the stay at the hospital and, of course, too for the medication
- the

unnecessary medication - the victim / patient of this scam is forced to take. In this abuse
of the patient’s civil rights as well as other governing regulations, RWJ Barnabas’ Clara
Maass claims a diagnosis of a mental illness that captures mental incompetence. Whereas
regulations allow an override of the patient’s right to refuse medication if deemed
mentally incompetent, Clara Maass in this way may, and do, force medication - in
complete indifference to the patient’ need for the drugs, placing the patient at health risks
from the drug.

At the STCF, Clara Maass’ treating psychiatrist fabricated a diagnosis of plaintiff - based
on NO symptoms whatever — as he himself acknowledged. The false diagnosis would
satisfy the requisite mental incompetence of the patient that would allow the STCF to be
able to force medication. This False Claims conduct generates for defendant government
funds from unneeded medical treatment. Further violations of plaintiffs rights as a
function of defendant’ 2-step program is substantiated in: I was forcibly medicated after
4

Clara Maass’ treatment team psychiatrist purposefully removed my name from a list of
patients to be present in court subsequent my informing him that I would use that court
appearance to discuss my need for medication.

At variance with government mental healthcare services funded under, among other
government provisions, 42 U.S.C. § 290bb-31 (generally) plaintiff was denied the
required standard personal clinical evaluation by a physician or psychiatrist at the
screening services provider. The screening service’ psychiatrist did not personally
examine plaintiff for the presence of a mental illness as defined by NJ statutes at
N.J.S.A. 30: 4-27.2r, to say nothing of assessing for the required fact that that mental
illness causes the person to be a danger to self, others, or property. The psychiatrist did
not try to determine danger - in any degree (substantial or not) — where the requirement is
to present clear and convincing facts of substantial danger. N.J.S.A. 30: 4-27.2(h)(i).

Plaintiff saw the screening facility’s psychiatrist in the presence of a crisis team. This
physical proximity does not equate a clinical examination nor “extensive evaluation” as
concluded by the service’ investigation of plaintiffs complaint to their Patient-Relations
department. (Ex. 1 & Ex. 2, respectively). The psychiatrist’ ‘extensive evaluation’
subsisted in her only contribution to crisis team interaction which was to state
acquiescence to plaintiffs expressed regret at not choosing “jail” over the “ER”.
(This is treated below.) At No point did she assess for plaintiff need for involuntary
commitment or need for involuntary commitment to treatment as defined at NJ Court
Rule 4:74-7(b). The screening service’ psychiatrist made no attempt whatever to ascertain
5

the presence of a mental illness and she at No time attempted to establish any facts to
support that plaintiff is a danger to self, others or property (as a function of that mental
illness). At No time did this mental healthcare services provider test for the presence of a
(the) mental illness that causes plaintiff to be dangerous.

Both restrictive custody - involuntary commitment and jail, state and federal laws
meticulously guard the rights of the individual put in those settings in the legal standards
set for determining the need to so restrain the person’ liberties. Governing codes prohibit
any deviation from the due process statutory guides in this - yet the screening service’
certifying psychiatrist in gross incompetence - wanton negligence - malicious
malpractice, falsified statements to the court in pursuit of commitment order that effected
the false imprisonment of plaintiff in substantial False Claims violations.

Procedure was followed at Clara Maass — and procedure only — as in procedural due
process, Not substantive — as to the required STCF assessment of need. Plaintiff was duly
questioned by the treatment team psychiatrist within the set 72 hours of admission in a
mock evaluation that evinced the psychiatrist’ - with full knowledge -willful
misrepresentation of the facts in fabrication of the certifying standards of a mental illness
and of the dangerousness of plaintiff.

The STCF’ perfunctory clinical evaluation was done in the presence of a nurse on the
unit. The nurse witnessed plaintiff s utter surprise at the question of being paranoid of
“technology” - the telephone and email to be specific - and my strong denial of same.
Plaintiff had not the foggiest awareness then that that manufacture was in her records
6

from the screening service, hence my “utter surprise”. The STCF’ psychiatrist response
to the denial of any (or any such) paranoia was to mutter that he was reading someone
else’s chart, not plaintiff s. That denial of the existence of this irrational thought content
— the only claim given on the two certificates for the standard substantive of the presence
of thought disturbance contributing to the / a mental illness - did not prevent the STCF’
psychiatrist from unscrupulously - expediently, proffering that fabrication to the court for
the necessary court order. 31 U.S.C. §3729 (a) (1) (A),(B) provides for this action.

Plaintiff, at this point, was also unaware of the screening certificate’s reliance on the
fabricated claim that plaintiff does not eat, sleep or take care of self as substantive for
plaintiff [/STFC committee] being a danger to self.

It was refuted in thesham clinical examination at the short term care facility.
This denial (of ‘danger to self component) like the denial (of above ‘thought
disturbance’ component) was not noted but left undisturbed in the STCF’ certification. In
fact, the short term care facility’s certificating statements are practically verbatim the
screening service’s.

Neither the screening service nor the STCF provider certificate attempted to ascertain the
facts respecting the standard for danger required by the court i.e. the fact-finder assessing
plaintiff s vehement denial of a violent threat to anyone would at the very least note that
the person making the allegation of being threatened with a knife by plaintiff, had since
(before leaving the screening service - in fact, before the claimed “clinical examination”
by this service, the caller to the police spoke with the nurse on the ‘crisis team’ and
7

retracted the allegation; further, the police found nothing substantiating the allegation in
the first place - “no knife was found”. Defendants held to this unsupported claim in
their respective certification. The False Claims conduct here is the willful omission of
information that would, in this case, prevent a standard for the court order to commit, that
of ‘danger to others’.

It was this allegation to the Paterson police that began this case and it is noteworthy that
not only was the allegation denied by the caller to the screening service before
commitment, but St. Joseph’s, the screening service, had full knowledge that the police
found nothing supporting the allegation. The certificate notes “no knife was found”. In
fact, the official police report makes no mention of this allegation. (Ex. 3)

The allegation was a fabrication, by a caller with a history of such fabrications. The
screening facility purposefully put before the court this wholly unsupported allegation as
‘clear and convincing’ fact that plaintiff is dangerous to others.

The screening service’ False Claims violations of misrepresentation of a ‘violent’ and ‘in
need of stabilization’ person in plaintiff is also conveyed in defendant’s false statement
that plaintiff was brought to the ER by the police department secondary this dangerous
violent threatening behavior with a knife. Plaintiff was transported to the ER by
ambulance, not the police.

As argued below, proof of dangerousness caused by a mental illness, material for an
involuntary commitment grant is a legal question and the courts have set that it must be
8

3^

established in clear and convincing facts. Defendants’ certifying misrepresentations,
false and falsified statements for the commitment court order are False Claims violations.

Whereas, the FCA is meant to establish deterrents to fraudulent abusive practices from
service providers, this complaint proposes amendments to existing regulations that will
check more compellingly healthcare billing frauds arising from medical malpractice.
These revisions also reduce waste of State funds as well as increase public safety
compromised by fraudulent medical malpractice.

1.

Factual Background and History of the Commitment Order
A.

The Parties

Pro Se plaintiff, Zoe Ajjahnon has the address, 110 Chestnut Ridge Rd., Montvale, NJ
07645; Ph.: 973-949-4773

Defendant, St. Joseph’s University Medical Center is one of the healthcare services
providers of St. Joseph’s University Medical Centre. Instant emergency room (ER) is
located at this facility: address: 703 Main Street, Paterson, NJ 07503; Ph.: 973-754-2000

Defendant, Robert Wood Johnson Barnabas Health, Inc. / RWJ Barnabas Health, Inc.,
announced its formation on March 31, 2016 from a merger of St Barnabas Medical
Center and RWJ University Hospital Hamilton. In 2006 St. Barnabas paid $265 million
dollars in penalties from a qui tarn False Claims Act suit. RWJ Hospital Hamilton, in
2010 paid the government $6.3 million dollars for similar charges. The new corporation
is registered a not-for-profit entity. It is a network of several hospitals that provide
9

healthcare services in New Jersey to approximately 5 million people or Vi the State’
population. Clara Maass Medical Center, at 1 Clara Maass Drive, 1 South Annex Unit,
Belleville, NJ 07109 ; Ph.: 973-450-2000 is the corporation’ short term care facility
provider of this case. RWJ Barnabas Health, Inc. gives variably two corporate addresses,
950 Old Short Hills Road, West Orange, Essex County, N.J. 07052; Ph.: 973-322-4328
and 2 Crescent Place, Oceanport, Monmouth County, N.J. 07757; Ph.:732-923-8000
B.

Background of Certification From the Screening Service

On 18th December 2018 at approximately 11:00pm plaintiff was transported by
ambulance to St. Joseph's emergency room following a call to the Paterson police
department. The call was made by plaintiffs mother who resides at 723 E. 26th St.
Paterson, NJ. Plaintiff was told by the police that caller alleged that I threatened her with
a knife. I was first apprised of this ‘threat with a knife’ by the police. It never happened.
Plaintiff has never once threatened this caller (or anyone else for that matter) with a knife
or anything else.

Upon the police arrival I was in a bedroom with the door closed in the caller’s house.
Caller was in a separate part of the house. There was no interaction between us. The
police entered the room and searched for this alleged ‘knife’. No knife was found.

The police spoke with the caller separately. The officers questioning me were told that I
did not on 18th December 2018 nor at any time prior made any threat whatever to caller in word or action. This act of violence was categorically denied by plaintiff and in fact
10

the caller later denied making that allegation. She would then flip once more, admitting
that she, in fact, said plaintiff threatened her - and that with a knife - but that it was the
police told her to say that.

The police report makes no reference whatever to this allegation of threat. (See, Ex.3) As
developed below, the caller’s allegations apparently also claimed that plaintiff further
threatened her by spraying ‘Lysol’ on her -1 first learned of that portion of caller’
allegations at the short term care facility. The police that told me of the allegations only
mentioned the “threat with a knife”. The final police report also carries no mention of this
‘spraying threat’. Id.

The caller reported that I threw food away. The police saw evidence of that in an open
garbage bin in the kitchen or as put by an officer, “the mess in the kitchen”. This
insubstantial for dangerousness/ violence / threatening behavior is also not mentioned in
the police report.

The Paterson police then told me that I needed to leave the caller’s house and gave me
two options: I could go to jail or to the ER. I opted for jail, reasoning aloud to the officers
that, whereas the allegation of threat is entirely untrue, the judge would release me in the
morning. The police countered that I would likely spend weeks in county jail before
seeing a judge and that the better choice would be the ER since, to quote, “you would be
there for a couple hours, you speak to the doctor and leave”.

I was taken to the ER by ambulance. In a two-minute interchange with the ER doctor, he
11

asked while reading some other document, why I was there, I told him of the call from
my mother and the fabricated allegation made to the police. He asked why my mother
would do that. I answered that she has a history of such behaviors, that is, behaviors that
would somehow cause me harm, and that, in fact, I once had to get a restraining order
against her; but of more significance is the harm she did my son, expressly, to “get me”.
I informed the ER physician, that my mother has admitted to sexually abusing
my son as a minor. Her stated reason was, “can’t catch Quako, catch his shirt”, a
Jamaican colloquialism for hurting the person closest to the one you wish to harm, such
his/her child, spouse, etc.

The ER physician, without breaking his reading long enough for eye contact / a glance at
plaintiff, responded that this sounded “bizarre” to him and offered that I speak with the
social worker.

The social worker / screener began her assessment with the same questions as the ER
physician’, and received the same replies. The screener too gave the same response as the
doctor in her cry, “do you know how crazy you sound” when I told her of callers’ sexual
abusive of my son when he was a minor.

The social worker then took a social history - marital status, any children, what do I do
for a living. The screener learned that I am a writer. Upon which she asked if I write
blogs. My answer was a succinct ‘no’. Nothing more was said of computers, social
media, or anything remotely relating. This is stressed because the screening certificate, I
learned later, fabricated a claim that plaintiff is afraid of telephones and email and rarely
12

- uses them. This so particularly untrue, I am still trying to work out just where that lie
might have come from. This query from the social worker is the only time I was asked
about anything having to do with computers or computer technology and both family
members the screening service spoke with deny having told defendant any such thing
I denied any hallucination or thoughts of suicide.
I don’t recall that the screener asked about my eating and sleeping habits or general care
of self but the screening report would later fabricate the claim that I neither eat nor sleep
well and I do not take care of myself.

The screening inquiries revealed that plaintiff has no psychiatric history whatever. The
screening report gathered that plaintiff has never had a psychiatric evaluation,
hospitalization, treatment of any kind, or, importantly, any manifest symptoms of a
mental illness —has never had any clinical manifest of a psychiatric / psychological
disorder — And therefore, no medication for a non-existent condition — an important
point, if pedantic in its logic, since the screening facility’s certifying statements to the
court would claim that plaintiff became violent [secondary] denying psychiatric treatment
as the ‘description of the person’s mental illness’ requested may imply here. (Ex.4a).
Indeed, the certifying statements of plaintiff ‘violence’- dangerousness and that of
plaintiff ‘ ‘[denial of] psychiatric treatment’ - are given in separate sentences (albeit, the
same context of the mental illness), the point however is that, defendant having not
performed the requisite clinical examination — the screening facility’s psychiatrist simply
had no facts to establish the fabricated ‘dangerousness’ and in true false claims style,
13

ignored the lack of any psychiatric history to manufacture a clinical diagnosis of mental
illness. The screening service billed for this requisite examination it did not provide.

Argued below is that the screening certificate’ False claims of a diagnosis of a bipolar
disorder, among other malpractice claims, is grossly incompetent, ignoring as it does, the
clinical manifestation standard of both manic (or hypomanic) and depressive periods (and
that mood fluctuation over time) - and that that mood fluctuation must have been
repeated at least once. (DSM V and ICD-10, see below)

C.

The Screening Service’s Certificate Per Se

False Claims diagnosis under 34 U.S.C.§10651(a)(7)(A) by defendants for government
funds is evinced here. The screening certificate is a clinical certificate that must be
executed by a psychiatrist or other physician affiliated with the screening facility.
N.J.S.A. 30:4-27.2y. At No point was plaintiff clinically examined /evaluated by a
psychiatrist or other physician at the screening service; that is, assessed for a mental
illness (symptoms past or present) as defined at N.J.S.A. 30:4-27.2r; examined for
probative facts establishing that that mental illness causes plaintiff to be dangerous, as to
court standard given at N.J.S.A. 30:4-27.2h,i; offered the option of voluntary
commitment for a (the non-existent) mental illness, nor informed of any facts supporting
that a less restrictive psychiatric facility or hospital could not treat plaintiffs (non­
existent) mental illness.

After 12 hours sitting on a gumey in the ER’s hallway, where I passed the time reading a
book provided by the screening facility at my request, I was informed by a security guard
14

that I will see the psychiatrist in the company of a ‘crisis team’. At my raised brow
he clarified that it was hospital policy / safety precaution should the patient become
violent. To which I shrugged -the thought of my observed / demonstrated, sustained
stable non- threatening behavior vying with an appreciation of this hospital safety
implementation, at all times.

The security guard was one of the 4-member ‘crisis team’ of the ‘single-sentence’
interchange I had with the screening service’ psychiatrist. I was informed that I will be
committed to a short term care facility. My immediate question was ‘why?’ It was the
nurse, not the psychiatrist, of this team that replied. The significance here is that her
answer had nothing to do with NJ state laws that demand the existence of a mental illness
and that that mental illness causes the individual to be a danger to self, others, or
property.

The nurse’ reason given for my ‘need for involuntary commitment to treatment’ was put
in my employment history. Her statement was that I haven’t worked in years according
to my daughter. To be accurate, what my daughter actually said was that I have not had
an income in years. My daughter is not an authority on my personal finance, however.
That notwithstanding what is of importance here is that this financial information does
not support the existence of a mental illness and that that mental illness causes plaintiff to
be danger to self, others, or property.

The only cursory assessment, if you will of plaintiffs ‘dangerousness’ was the nurse’
question of caller’s knife she keeps by her door to open it. By admission, the nurse had
15

previously spoken with my mother, the caller. It is understood that at that time, the caller
retracted her previous allegation that I threatened her with a knife, saying rather that she
keeps a knife by her door to handle the broken lock on that door; and indeed, the nurse
did not ask if I ever threatened my mother with the knife. I volunteered /reiterated that
denial stating, that I did not use that or any other knife then nor at any time in the past to
threaten caller - given the caller’ previous allegation.

The psychiatrist for her part made no inquiry whatever, even remotely having to do with
substantiating a need for involuntary commitment / involuntary commitment to treatment.
She did not examine for a mental illness, did not even question about plaintiffs
dangerousness and as already noted, the psychiatrist offered no reason at all for plaintiffs
need for involuntary commitment she simply denied an answer /gave no reply to my
direct request for this information. This certifying psychiatrist’ sole contribution (the
single sentence) in the ‘crisis team’ interchange was to find out if I was forced by the
police to go to the ER. I responded truthfully, that they gave me a choice between jail and
the ER and that I originally chose jail adding that I regretted not having gone with that
choice. The psychiatrist concurred. She gave nothing of a protest that an involuntary
commitment / involuntary commitment to treatment at a short term mental healthcare
facility (as opposed custody at any other institution) is needed. She offered nothing
defending her certificate that plaintiff is in need of treatment for a mental illness that
underlies being a danger to self, others, or property.

I was then sent to a “crisis stabilization unit bed”, where I passed an additional 12 hours
16

(finishing a second book also provided by the screening services facility) before being
transported to the short term care facility. My 24 hours at St. Joseph’s ER evinced
nothing of “in need of (mood) stabilization’, impulsivity, or any behaviors consistent with
‘impaired judgment’ falsely claimed in the screening certificate. (Ex. 4a)

Dismissing the State’ probative standards, the screening certificate builds a report of
violence despite an unsupported and retracted allegation.
It should be noted that in the prior meeting with the social worker, I was expressly denied
speaking to the fact that this caller has a history of making such fabrications. See Ex. 5 plaintiff s March 9th 2019 complaint to the Department of Health (NJDOH) of the
incompetent screening services at St. Joseph’. The complaint deals also with the False
Claims billing for services of a psychiatric /physician evaluation never executed.

In this matter of False Claims violations the court finds that the ‘dangerousness’
assessment imported in the nurse’ above question regarding the caller’s knife kept by her
door was only fodder for the certificate’s outright fabrication that, not only did plaintiff
threaten caller with a knife but that she broke into the caller’s room to do it. To reiterate,
the police report makes no mention of the caller’s allegations of threat / threat with a
knife.

Undaunted in its fantastic fabrications, the screening certificate builds on the false claims
of plaintiff being violent and unstable and falsely stated that plaintiff was brought to the
ER by the police for screening [secondary this threatening behavior]. This is entirely
untrue. I was transported to St. Joseph’s ER / the screening service by ambulance.

Where State standards demand of the certificate a description of the mental illness, the
screening service states: “The client’s mother and daughter report that client’s behavior
has been this way for a long time.” Emphasis mine, whereas nothing, absolutely nothing,
is given to define “this” used here. The crucial matter of establishing the presence of
mental illness is left completely unqualified. Defendant’s certifying statements of need
of commitment in pursuit of the court order leaves the Court to imagine the ‘just cause’
for its grant.

Where the certificate asks for a description of - the particular facts for - the presence of a
mental illness: plaintiff has no history of a psychiatric diagnosis or treatment; and the
certificate records none; stating my denial of any psychiatric treatment, put subsequent
defendant’s falsified statement of‘dangerousness’. Defendant’ False Claims act in this
requite for the existence of a mental illness dismissed my denials of the caller’s
allegations of threatening her with a knife. This information came from the screener
because at No time at all did the screening service’ psychiatrist or any other physician
clinically examine / determine / ask me any question at all regarding the alleged threat or
of a psychiatric history for that matter.

The mere nonexistence of a fact does not preclude it from inclusion as ‘particular fact’
substantiating need for involuntary commitment to treatment in defendant’s certificate.
Where there is no irrational thinking/thought content disturbance, the screening
certificate made one up. Completely unknown to me, the screening service psychiatrist
falsely claimed that plaintiff is ‘paranoid of the telephone and email’.
18

Further, her certifying statements put, to quote, “some delusion” the actual event acknowledged by the perpetrator herself - of the caller’ / my mother’s sexual abuse of
my son as a minor.

For the standard of competent facts to substantiate ‘danger to self’, the screening service
manufactured the claim that “[plaintiff] does not eat, sleep or care for self - expedient
inventions of defendant’s False Claims pursuit. The screening service certifier asked me
nothing of this. Like the paranoia regarding the telephone and email - this Tack of selfcare’ was particularly surprising to plaintiff - wholly invented by the facility as they are.
(As opposed the further ‘danger to others’ False claims, secondary dismissal of
(substantiating) facts (the police found nothing supporting the allegation of threat
/violence, the caller retracted, and plaintiff s denial was dismissed) where plaintiff was at
least aware of the caller’s fabricated allegations.) The fact-finder will dismiss this
fabrication of danger to self in the results of medical tests done at the screening site that
negated poor nutrition and in observations there that show good personal hygiene and
well-rounded self-care.

To support ‘danger to others’ the screening services purposefully regurgitated the
fabricated allegations by the caller to the police. As noted, not only was plaintiff denied
by the screening service to refute the caller’s statements but caller herself retracted her
false allegation, the law enforcers also wrote nothing of this in the police. There was No
‘particular fact’ /clear and convincing as standard, or indeed, otherwise - simply No
evidence whatever substantiating the caller’s fabrication of an attack with a knife. False
19

Claims actor, St. Joseph’s proffered this claim to the court, based on no fact - at all.

Court standard for “substantial” ‘danger to property’ was satisfied in the certificate as,
‘throwing away food and household items’. Where plaintiff admits having thrown food
items away - and that in a garbage bin, the matter of danger or substantial danger is
refuted, for, to be clear, this was done when plaintiff was alone in the kitchen , that is: no
one else /caller being nowhere present. Further, the food was thrown in the kitchen
garbage bin - a normal receptacle for things thrown out. The police indeed saw “the
mess” of an open garbage container and made no remark of this as “destruction of
property”. The police report does not mention this insubstantial. (Id. at Ex.3)

Based on no history at all or presenting manifest clinical symptoms of any psychiatric or
psychological disorder, the screening service’ psychiatrist maliciously certified a
diagnosis of bipolar disorder. St. Joseph’s False Claims violations subsisting in the
fabricated certifying statements, obtained for defendant a court order for commitment and
the facility could bill for the number of services pertaining an involuntary commitment this in complete indifference to the false imprisonment of the patient /plaintiff. In
addition to the prima facie False Claims by defendant, the complaint argues further
dismissal of federal principles in this actor’s civil rights violations of plaintiffs freedoms
guarded in the constitution.

Redress is properly sought under the FCA provisions for St. Joseph’s fraudulent and
abusive practices in getting funds for screening services.
20

D. The Certificate From the Short Term Care Facility Per Se
Plaintiff was admitted at Clara Maass Medical Centre on 19th December 2018 at or
around mid-night, and routinely seen by the STCF psychiatrist within 72 hours of
admission from the screening facility. A unit nurse was present during this sham
evaluation. The psychiatrist referred to the screening service’s certificate in his
examination. Plaintiff might as well not have been present for all the acknowledgment
given any response she gave to the psychiatrist’s examining questions. The STCF’
certificate reads almost as a true copy of the screening service’. (Exs.6 & 4a
respectively.) The STCF’ psychiatrist disturbed nothing of the falsified statements (some
of them learned by_plaintiff for the first time during this sham evaluation, like the
paranoid thought disturbance content mentioned above), whatever plaintiff said.

The STCF psychiatrist’ certifying a need of the facility’s service was quite unconcerned
with establishing his certifying claims in clear and convincing facts to the court.
Unruffled by any scruple to record the facts of his examination, the STCF psychiatrist
left unchecked - willfully omitted information - the screening service’ fabrication of
plaintiff “irrational thought content of a fear of the telephone and email” - in fact, the
psychiatrist just rewrote this as a fear of technology in general. I first heard of this
paranoid thinking from the Clara Maass examining psychiatrist at this sham evaluation
it is so wholly untrue (I use the telephone and email on a daily basis; further, I have no
fear of any technology), my strong denial of this fabrication from codefendant, the
screening service led the STCF psychiatrist to say, he ‘was reading some else’ chart’ - it
nothing whatever to check the STCF’ own False Claims conduct; so that instead of

certifying that [plaintiff] is paranoid of the telephone and email, defendant the STCF,
simply made the fabrication ‘more’ (as is this actor’s wont, see below where the STCF
built on /added to the screening service’ False claim diagnosis of a mood disorder
expediently for their own FCA purposes) and wrote that plaintiff is afraid of
‘technology’. (Ex. 4a).

Stating that he was “reading someone else’ chart” in response to my denial of the
“thought disturbance” of the fabricated ‘paranoia’, the psychiatrist essentially saying here
that this thought disturbance / psychiatric symptom is another’s and not plaintiff was left
undisturbed in characteristic False Claims malicious medical of false statements to the
court in the STCF’ pursuit of the bills generated to Medicaid and plaintiff. At defendant’
STCF, the need for their services to treat a mental illness that causes the person to be
dangerous, is reinterpreted simply as need for billing claims for this treatment.

The STCF’ feigned clinical exam proffered nothing, by way of correction of or new
information to the screening certificate that substantiates the requirement that committee
has a mental illness and that mental illness causes plaintiff to be a danger to self, others,
or property. The short term care facility’ certifying psychiatrist did not trouble to
establish /get the (purported) facts for the screening service’ claims that plaintiff is a
threat to (an)other Neither, the screening certificate’s statement that “no knife was found”
nor plaintiff s vehement denial of ever making a threat with a knife, was noted in the
STCF’ clinical test for need of their service.

The STCF’ certifying psychiatrist left the diagnosis of bipolar disorder unaltered at this
22

point (i.e. it was sufficient for the commitment order requirements, but not for this FC
actor’s purposes of - not just prescribing unnecessary medication - but actually
physically forcing the medication on the patient (this seasoned FC actor is diligent / quite
serious about getting money from government funds for healthcare services).

Codefendant’s manufactured diagnosis was altered / manipulated later by the STCF for
the purpose of forcing medication - a necessity since an investigator probing the
defendant’s overmuch and unnecessary prescription of drugs, the particular drug of this
False Claim suit would be relegated, to standard treatment for the made-up diagnosis; this
diagnosis too protects this actor in claiming mental incompetence of the patient and
therefore the allowance to override patient’s refusal. That this False Claims actor needs to
establish mental incompetence (as opposed to ‘just’ mental illness) to force this
medication; it is a standard drug for the made-up psychiatric illness, and the necessity of
required patient monitoring (bills for daily stay costs, as well as for blood tests ‘needed’
in this monitoring) all serve to defraud the government, optimally, is argued below.

Subsequent getting the court order, the STCF’ psychiatrist shared with plaintiff that the
bipolar disorder diagnosis was, quote, “tentative”, whereas plaintiff has no psychiatric
history - symptoms / evaluations / treatment. It was reading the record that I discovered
that the STCF actually put that I have a schizoaffective disorder - a false claim of
schizophrenia in addition to the already fabricated bipolar mood disorder.

23

E.

Violations of Governing State Laws at the Short Term Care
Facility. As Matter of Fact

Plaintiff asked and was told by the STCF’ psychiatrist that her diagnosis was quote,
“tentative bipolar disorder”. “Tentative” because there is no symptomatic history, he
stated. Plaintiff requested and received through the patient advocate, a writ of habeas
corpus. From this I learned that the STCF put a diagnosis of a schizoaffective disorder in
my record. In this is substantial False Claims of malicious medical malpractice.

Clara Maass’ psychiatrist’ acknowledgment that plaintiff has no psychiatric history, and
specifically, no psychiatric history of a substantial mood disorder - as to the “tentative
bipolar diagnosis”, added to the nonexistent mood order the simultaneous manifest
symptoms of schizophrenia, in sheer maliciousness as the complaint argues below.

Plaintiff was denied the right to refuse medication at Clara Maass. After a treatment team
meeting where I refuted the need for antipsychotics and informed the team’s psychiatrist
that I would use an upcoming scheduled appearance in court to “argue a need for them
and let the court decide the necessity of medication”, the psychiatrist removed my name
from the list of committees to appear in court that date.

Defendant’s short term care facility has what it calls a “2-step program” where
committees’ refusal of medication is effectively disallowed. It is a procedure where the
treatment team’s psychiatrist’s prescription is seconded by a so-called ‘independent’
psychiatrist and the patient is then forcibly injected with the drugs thereafter - the option
to take the drugs orally is presented to prevent physical restraint for the injection.
24

Mental incompetence unavoidably restricts such treatment decisions by the mentally ill;
however, NJ statutes prohibit the assumption of mental incompetence of the mentally ill.
A test for mental incompetence of an unsound mind is in active manifest symptoms of
schizophrenia, past or present.

That the STCF’ psychiatrist falsely added (or fused, simultaneous) manifest symptoms
(qualifying for the diagnosis) of schizophrenia to a nonexistent mood disorder (and note
here, the bipolar disorder is bald - not bipolar with psychosis for example) allows
defendant to finally forcibly drug the patient subjected to RWJ Barnabas Health STCF’
2-step program.

AS a general noncompliance matter, instant complaint notes that defendant’s short term
care facility at Clara Maass does not provide the opportunity for physical exercise as
called for in State regulations. N.J.S.A. 30:4-27.1 Id (b) (8)

F.

Pre-Action Steps and the Need for This Action : Indicated
Amendments to Current N.T Regulations and Compliance Guides

Mentioned in the preceding, plaintiff complained of defendant, St. Joseph’s grossly
incompetent screening services, unprofessional patient relations, and False Claims
irregularities in billing plaintiff for a psychiatrist’ (clinical) evaluation and/or other ER
physician (clinical) examination that was not executed. It is dated 9th March 2019.
(Ex. 5)
Following my telephone communication to St. Joseph’s Patient Relations department,
defendant was further told by plaintiff of these grievances, I followed up this
25

communication with a written statement, emailed dated, 12th March 2019 (Ex. 2).
Defendant’s written response was sent to plaintiff via regular mail. It purports to have
conducted an investigation into the matter and concluded that plaintiff received an
“extensive evaluation”. It is dated 25thMarch 2019. (Ex.l).

As part of the Corporate Compliance requirements of the (2006) $260 million qui tarn
False Claims Act penalties, defendant, RWJ Barnabas Health instituted a Regulation and
Compliance Hotline. Plaintiff registered a complaint there of their false diagnosis and
forced medication, with particular emphasis for information on their 2-step program. This
was done some time in late January or early February of 2019. I was informed that I
would hear back from them on or around 1st March 2019. As of the date of this
complaint, defendant has made no response. A follow up call by plaintiff to defendant on
28th March 2019 was ignored. The Call Report ID: SBH-19-03-0003 and Pin #: 6201.

This case has given rise to the need for revised regulations that will more effectively
check False Claims medical malpractice such as substantiated in the ease with which
screening services providers like St. Joseph’s and the STCF of RWJ Barnabas Health can
manipulate current regulations of their respective services. Government funds for these
services are subject to practically effortless fraud and abuse from these providers, as
evinced here in the falsification of document to the court for the necessary court order,
capitalizing on unnecessary treatment for the false diagnoses given, the cost of related
(blood) tests for the unnecessary drugs in the first place, plus the charges for each day the
committee is held at the facility.
26

Further, 31 U.S.C. § 3729 et seq guards against fraud and abuse by healthcare service
providers are ultimately a matter of public safety and False Claims practices by these
service providers present a safety risk to the public. For example, side effects of
unnecessary medication - a falsified need for the drug / not medically indicated, to begin
with - can be life-threatening.

1. Wherefore the Complaint Proposes the Following:
Where a screening service is used, the second certifying psychiatrist or other physician
must be a neutral party, that is, one not affiliated with either the screening services or the
short term care facility; funding is to be set for an on-call private physicians ‘per diem’
program to execute the second clinical certification. It is a proactive measure to prevent
the fraud in the first place. The screening facility’s claim of the patient’s need for
involuntary commitment to treatment is impartially scrutinized, since the STCF has the
vested interest of ratifying whatever the referring entity states to get money from the stay
at the facility but the ‘independent’ physician - NOT affiliated with /paid by either
provider does not. The complaint stresses here that this measure does not do away with
the assessment within 72 hours of commitment at the STCF - rather, it amends that that
clinical evaluation upon the institution of the commitment is to determine course of
treatment during commitment, rather than (as it is now abused by FC actors) to conclude
need of commitment to treatment at the STCF’ service.

The Court considers that this complaint of False Claims frauds and abuse by both the
27

screening service provider and the STCF, both skilled one perhaps more so, (RWJ
Barnabas Health, Inc in combined penalties has paid over $270 million to satisfy federal
FCA penalties), if history is any predictor of future conduct, defendant’s STCF will not
likely turn away anyone referred for their services - whatever the fraud this actor needs to
perpetrate. The STCF can No longer be the second certifying agent. It is too easy to
manipulate billing government funded programs.

Further, whereas defendant, RWJ Barnabas Health, Inc. services over Vi the State’s
population, the risk to public safety (from falsified needs for drug treatment for instance)
is too great not to address / implement this public welfare measure. For all that it
effectively bars fraud at the root it is finally a public safety guard.

In that, the funding for the ‘per diem program’ will implement a preventive to fraud and
abuse of the system and therefore cut waste of funds, it is cost effective - saving money
by reducing the ease of False Claims practices by healthcare services in keeping with the
goal of Congress in the 2005 Deficit Reduction Act, here in providing for that which
drains Medicaid and Medicare primarily, False Claims actions by health care providers.

As to the referring screening service, their services, dependent on government funds as
they are financial incentives will motivate them to declare anyone coming through their
doors as a referral to a STCF. The number of referrals by the screening services should
not dictate continued funding received and more stringent regulations to ensure what here
smacks of kickbacks is not further incentive to the screening service to refer to the
STCF, 42 U.S.C. § 1320a-7b(b).
28

3

Additionally, in that, this matter shows that healthcare professionals, under color of law,
can (and do) effortlessly present doctored, incompetent, fabricated material to the court in
their various False Claims actions, it seems necessary to be able to - as easily - verify
their certifying statements to the court. To that end these proposed guides call for a
verbal (in addition to the written) recording of the required clinical evaluation. As seen in
instant matter’ certifying claims of defendants’ respective perjured statements, discovery
efforts for the verbal recording of the standard clinical examination would return no such
evidence from the screening service whereas no clinical examination was performed. No
recording of an exchange between plaintiff and the certifying psychiatrist could possibly
reveal what she claimed -1 had no such conversation with her, my only exchange with
her was as to the ‘single-sentence’ put above. The certifying statements of defendant’s
psychiatrist are inventions and where any came from the facility’s screener it is unlawful
to substitute for her personal clinical examination as per standards of the court.
DiGiovanini v. Pessel (A.D. 1969), argued below. Findings from the feigned clinical
evaluation of the STCF would record statement from the psychiatrist of reading another’s
chart in response to plaintiff denial of thought disturbance requisite, and therefore
provide additional proof of defendant’s denial of probative facts in fabricating claims of
thought disturbance/ mental illness to the court.

Simply: the proposed verbal recording of the clinical exams in instant matter would
effectively show that as to both FC actors, neither at the screening service nor STCF, did
plaintiff state / admit to, or in any way indicate (implied/expressed) paranoid thoughts
specifically or generally of telephones and emails /technology. Plaintiffs denial of this
29

witnessed by the nurse at the STCF would be corroborated in the recording; and likewise
of other false (albeit expedient) claims by these healthcare services.

To be clear, the proposal for a verbal recording is of the clinical examination, to be
protected by the same professional confidentiality guards as the written medical
(certifying) report; however, to note in passing, a full recording of the ‘crisis team’
interchange at the screening service held by the provider as part of the required physician
clinical evaluation would be conclusive of the fact that at NO point did the psychiatrist of
this team test /asked a clinical examining question. It would evince that she in fact did not
execute a clinical evaluation, in violation of court standards. N.J.S.A. 30:4-27.2b

A further proposal is that all the certifying statements of the certificate should be shared
with the committee before submission to the court for the commitment order, as a matter
of informed consent under due process guarantees. That is, the person should be given all
the information of the service’ conclusion of the nature of the mental illness, the
dangerousness to self, others, or property that it causes and why this level of liberty
deprivation (vs. a less restrictive setting) is needed. A full page added to the certificate
seems indicated here where the patient / committee signs (checking off on each of these
statements) in acknowledgment of ‘informed consent.’ Allowances for the patient
deemed mentally incompetent by virtue of the illness apply where the next of kin or
power of attorney needs to sign. Having a mental illness does not automatically impute
mental incompetence as argued herein and as the physician, with any competence, would
30

know. The measure of the verbal recording provides additional guard from FCA
healthcare providers’ manipulations herein. Defendant, RWJ Barnabas Health False
Claims practices touches on this type of manipulation.

Further, for all that the courts in 1976 relaxed the ‘affidavit’ status of the certifying
statements in the pursuit of the commitment order, a valid clinical certificate is held to the
same credibility standard as any other document seeking a grant from the court. The
certifying physician should have full knowledge that penalties of perjury apply to any
false or falsified information. That should be clearly written on the certificate, above the
physician’s signature.

ARGUMENT
I.

FALSE CLAIMS ACTS OF INTENTIONAL SIGNIFICANT
INCOMPETENCE OF MALICIOUS MEDICAL MALPRACTICE
CONSTITUTES SUBSTANTIAL VIOLATIONS OF PROCEDURAL
AND SUBSTANTIVE DUE PROCESS LAWS AT ST. JOSEPH’S
MEDICAL CENTER. THE SCREENING FACILITY. THIS LED TO
THE FALSE INCARCERATION OF PLAINTIFF AT AN
INVOLUNTARY COMMITMENT FACILITY AND GROUNDS
PLAINTIFF’S LIABILITY CLAIMS UNDER THE FEDERAL FALSE
CLAIMS ACT PROVISIONS OFJ7 U.S.C. $ §3729- 3733 AND
CONSTITUIONALLY PROTECTED CIVIL RIGHTS 0142 U.S.C. $ $
1981 and 1983

i). It is established by the court that the question of being committable is a legal -not
medical- one. In fact, medical terminology may not substitute for statutory standards
(Matter of Commitment D.M. supra 313 NJ. Super, at 450). The state of New Jersey has
set those statutory standards in N.J.S.A. 30:4-27.1 et seq and Court Rule 74-7. The
burden of proof rests with the state to provide clear and convincing evidence for
31

the need for involuntary commitment.

Federally protected due process guarantees scrupulously guard procedural and
substantive requirements for the legal standard for “clear and convincing” evidence to
institute involuntary commitment. In Addington v. Texas. 441 U.S. 418; 99 S. Ct. 1804;
60 L. Ed.,2d 323 (1979) a unanimous court concluded that the Fourteenth Amendment
due process provisions require clear convincing standard of proof in a state
involuntary commitment proceeding. The State of NJ holds to this principle. In M.M..
384 N.J. Super 313, 894 A.2d 1158 (A.D. 2006) the court’s adjudication invoked State
guide, Court Rule 74-7(b) that reads in part ‘a person is in need of involuntary
commitment when there exists clear and convincing evidence that (1) the patient is
mentally ill, (2) that mental illness causes the patient to be dangerous to self or others or
property as defined by NJ.S.A.30:4-27.2h and -2.i,(3) the patient is unwilling to accept
appropriate treatment voluntarily after it has been offered, (4) the patient needs outpatient
treatment or inpatient care at a short term care or psychiatric facility or special psychiatric
hospital and (5) other less restrictive alternative services are not appropriate or available
to meet the person's mental health care needs. [Where] inpatient treatment is
recommended, the [clinical and screening] certificates shall indicate that the patient is
immediately or imminently dangerous to self, others or property or outpatient treatment is
inadequate to render the patient unlikely to be dangerous within the reasonably
foreseeable future.
In the matter of D.C. 281 N.J. Super. 102, 656 A.2d 861 (A.D. 1995) reversed 146 N.J.
31,679 A. 2d 634 (1996) the State affirmed that, “there can be no deviation from strict
32

statutory procedures for involuntary commitment”. This holding by the court was upheld
in J.R. 390 NJ. Super 523,916 A.2d 463 (A.D. 2007),_as a matter of constitutional rights.
The legal standards of those requirements are set forth in New Jersey state law,
N.J.S.A.30:4-27.1 et seq., further guarded in state statutes, N.J.S.A. 4D-let seq, and
§ 2A:32C Sections 1 through 15 and sections 17 and 18 [C.2A:32C-1 through C.2A:32C
17] / New Jersey False Claims Act (NJFCA - essentially, New Jersey’s adoption of the
Federal FCA in 2008), among other guards. Under 31 U.S.C. § 3732 (b) the federal court
may hear claims brought under the State FCA.

In this matter the Court finds that defendant, St Joseph’s, the screening service provider,
perpetrated False Claims fraud in making false or falsified statements of a certifying
report and further billed for services falsely claimed to have been rendered. Unlawful
under § 3729 (a)l(A),(B) where this defendant both knowingly falsified statements in
order to receive payment from government funds and knowingly facilitated the
perpetuation of further false claims so that benefited also codefendant.

Ex. 1 is St. Joseph’ response to plaintiff 12th March 2019 complaint to the service at Ex.
2. In this the screening facility strenuously declares compliance with New Jersey legal
standards and definitions of a person in need of involuntary commitment - categorically
false.

State regulatory guides to begin commitment proceedings in the State of New Jersey set
out in NJ Court Rule 4:74-7(b) at the first two of the above-given five stipulations that
the person must have a mental illness and that mental illness must cause the person to be
33

dangerous. The court gives the legal determiners /definition for mental illness and
inflexibly guard the standard for competent facts to establish the presence of a mental
illness and that the person is dangerous because of that illness. At N.J.S.A. 30:4-27.2r,
the legal definition for Mental Illness is, “a current, substantial, disturbance of thought,
mood, perception or orientation which significantly impairs judgment, capacity to control
behavior or capacity to recognize reality [and is not a function of mood altering
chemicals, organic brain syndrome or (organic/medical peripheral - i.e. not causative of
the disorders listed here) developmental disability]. Dangerousness to self, to others or
property is also legally set out in N.J.S. A. 30: 4-27.2h and N.J.S.A. 30:4-27.2i
respectively and both are clear that this matter of dangerousness must be squarely
founded in the mental illness, stating, “by reason of the mental illness [the individual is a
danger to self, others or property]”.

Where a standard is met in the person presenting with violent and / or unstable behavior,
the screening service falsely implied plaintiff needed to be stabilized in prefacing further
fabrications of Ex.l. Defendant’s letter falsely insinuates that I was “given a crisis
stabilization bed “ - [and then] - clinically evaluated or to use their words received an
“extensive [clinical] evaluation”. This is completely untrue. The fact of the matter is I
was never clinically evaluated at this service - before or subsequent any stabilization. I
was on a gurney for 12 hours requiring and getting no stabilization service — from about
11:00 pm to about 11:00 am - as verified in the services’ own fabricated certification for
need of commitment for services. The screening service’ psychiatrist gives the time
frame of her purported clinical evaluation of plaintiff at 10:45 am - 11:15. Ex.4a. As
34

labored however, I was Never clinically evaluated at the screening service.

There was NO stabilization measure taken because there was No presenting unstable
behavior. And, there was NO clinical evaluation. The certifying psychiatrist for the
screening services Never once inquired, examined, tested, evaluated for the presence of a
mental illness and Never assessed for dangerousness in any degree - substantial or
otherwise (court standard is “substantial dangerousness as defined at NJ.S. A. 30: 427.2h and N.J.S.A. 30:4-27.2i) and she made no attempt in any way to ascertain that
[that] /a mental illness caused plaintiff to be a danger to self, others, or property.

Plaintiff saw this defendant’s psychiatrist, one Dr. Jennifer Taylor while still, after 12
hours, sitting and stable, on a gurney in the service’ ER hallway. In addition to violating
due process guarantees , substantial and procedural, in the failure to conduct the clinical
exam, Dr. Taylor further denied due process provisions of constitutional law when she
failed to give plaintiff the basis for the determination that plaintiff is in need of
commitment or commitment to treatment in defiance of 42 U.S.C. §1983.

In M.G. 331 N.J. Super 365, 751 A. 2d 1101 (A.D. 2000) the court teaches that where
there was no immediate / imminent risk / emergent condition, plaintiff ‘informed
consent’ rights cannot be overridden and the Constitution protects guaranteed freedoms
to test the validity of the actor’s determined /concluded treatment option(involuntary
commitment here). As observed at this defendant’s, plaintiff was and had been stable for
a continuous 12 hour period at the time of their 4-person crisis team interchange, and the
prior screener’ report could not factually state the presence of any (pre)existing
35

symptoms of a mental illness. None exist. In the manufactured certifying statements
arising from a nonexistent clinical evaluation, the Court appreciates that this a
complaint of False Claims, fabrications of inventing information as well as fabrications
of dismissing facts, characterize this screening service’ healthcare provisions.
(See Exs. 2&5 in a pre-action step regarding the gross incompetence of the facility’s
mental health screener, among others.)

The parlance of the screening certificate itself clearly states it is to be used for
‘consensual admission” to a short term care facility where the individual is voluntary. I
was never given an option, a due process denial of Court Rule 74-7(b) where it states,
‘the patient is unwilling to accept appropriate treatment voluntarily after it has been
offered’. Such deprivation of liberties inherent in involuntary commitment is taken
seriously by the Court and privileges of informed consent apply.

The vastness of this defendant’s civil rights abuse in the falsified claims of need of
involuntary commitment or involuntary commitment to treatment in underscored
by defendant’ dismissal, ignoring of plaintiffs direct request for information / the reason
for this determination. I do not have a mental illness; never once have had any symptom
of any mental disorder. Ex.3 states that the same caller that fabricated a threat - not
observed by, and indeed not even mentioned in the police report - also fabricated that
plaintiff “has a mental illness and refuse to take medication for it” To repeat, I have no
history of symptoms of a mental illness, I have never been evaluated, hospitalized, or in
any way treated for (something I do not have) a mental illness and therefore cannot
36

‘refuse’ to take medication never prescribed, or to touch on the point above, my denial of
psychiatric treatment is in the facts that categorically deny a psychiatric history. A
clinical evaluation would have given that, it also would disallow the subsequent
manufactured diagnosis of a bipolar disorder. Defendant’s False Claims pursuits for
government funds willfully dismissed the fact that plaintiff has no psychiatric history; in
fact, did not trouble to ascertain any facts - probative or not - of the existence of a mental
illness. Under color of law, pretense of compliance with state statutes for establishing
competent facts for the certifying statements, and in denial of federally protected
guarantees the screening facility perjured claims to the court for the necessary order for
involuntary commitment, wrongfully incarcerated plaintiff at a STCF, and subsequently
billed for the false claims. Defendant’s false claims acts are also a matter of civil rights
violations under 42 U.S.C. §§1981 and 1983.

Plaintiff never signed - indeed, was denied that freedom whereas the screening service
never gave me that option - the screening document. (Ex. 4a shows by name typed in
not signed.) The complaint’s point here is that where there is a non-emergent clinical
condition - the ‘consent’ is not left to the referring screening service and the admitting
short term care facility. M.G. 331 N.J. Super 365, 751 A. 2d 1101 (A.D. 2000)

The service’ screening form used variably for voluntary or involuntary commitment to
treatment, plaintiff points to the constitution’s vigilant guard of civil liberties in measures
ignored by FCA defendant herein to conclude the need for such deprivation.

This suit’ “extensive evaluation” of defendant’s conduct substantiates this False Claims

actor’ “malicious reckless indifference to plaintiff federally protected rights for
‘informed consent. 42 U.S.C. § 1981A (b)(1) and is liable for uncapped punitive damages
under 42 U.S.C. §§ 1981 and 1983. Smith v. Wade. 461 U.S. 30, 56 (1983). Punitive
damages are sought as to the substantial False Claims actions as well as the
‘reprehensible character’ of defendants’ misconduct that extends to a total disregard for
plaintiff s federally protected freedoms - the emotional distress effected by defendant’s
violations. Hammond v. Northland Counseling Center. 218 F.3d 866 (8th Cir. 2000).

Justice Blackmun’ opinion for the majority on pre-deprivation constitutional guards in
Zinermon v. Burch, 494 U.S. 113 (1990), argued specifically the unconstitutionality of
deprivation of life, liberty, or property by the state that when it concludes the denial of
due process the state is liable, as distinguished from state immunity where provisions of
post-deprivation remedies causes those deprivations. Instant complaint supports state
liability. Defendant cannot prevail on the notion that deprivation of such protections of
the mentally incompetent is not necessarily unconstitutional whereas denial of due
process in instant matter prevented the determination of mental illness, to say nothing of
a further mental incompetence.

At issue is the dismissal of due process in the defendants False Claims of a fabricated
mental illness and one that imputes mental incompetence -expressly at defendant, RWJ
Barnabas. Highlighted where defendant denied New Jersey standards to test for mental
illness - and logically therefore, dismissed diagnostic standard for mental competence,
whereas, mental illness does not automatically impute mental incompetence,
38

Commitment of S. W., 158 N.J. Super. 22 (App. Div. 1978).

Defendant’ willful wanton due process violations in this case is substantial for this
screening service’ incompetence and a matter for consideration of stemming government
funding absent strict implementations to better ensure compliance with federal guides.
Proposed is the required signature of the patient in acknowledgement that the certifying
physician clearly described the mental illness and the diagnosis, and the ‘dangerousness’
to self, others, or property caused by that illness, - for example, stating back to the patient
an admission of thoughts of suicide.

The screening service provided no legal/standard reason for need of commitment or need
of commitment for treatment - and that denial of due process in deliberate refusal to
answer my direct question to the screening facility’s Dr. Taylor as to why I was being
committed to the STCF. To my expressed request for what informed the service’
determination for ‘need of commitment or need of commitment to treatment’ - of the 4member crisis unit above, the nurse’ (not the service’s psychiatrist to whom I directed the
question) answer altogether dismissed State standards as set forth in R.4:74-7(b) referring
to a hearsay about my economic status - touching on nothing of the required presence of
a mental illness or that that/a mental illness causes plaintiff to be a danger to self, others,
or property. That ‘economic status’ hearsay was of my income not my ability to work but provided fodder for/was falsified in defendant’s manufactured need for commitment
to treatment. Further, the screening facility not only engaged in false claims activity by
disregarding facts, the provider manufactured / willfully falsified statements to the court

regarding the statutory requirements for commitment in pursuit of the mandatory court
order. Whereas the screening service’ psychiatrist’s willful certification of false and
falsified information to the court is liable for penalties under State and Federal False
Claims guides (C.2A:32C-1 through C.2A:32C-17and 31 U.S.C. § 3729 et seq.,
respectively), her act of perjury under IS U.S.C. § 1621(2) is also subject to penalty.

St. Joseph’s False Claims conduct herein defrauds the government of funds for this
screening service. The willful and malicious abuse of the system harmed this patient in
false imprisonment from the perjured certificate. In the previous Addington v. Texas, 441
U.S. 418; 99 S. Ct. 1804; 60 L. Ed.,2d 323 (1979) the Court teaches that the Fourteenth
Amendment of the Constitution prohibits the state from depriving a person’s liberties
without due process. Deprivation of liberties cannot be done at the whim of the state / an
actor; such freedoms guaranteed in the constitution are staunchly guarded in
federal laws, the Restatement (Second) of Torts, § 35; 25 CFR § 11.404; and NJ Rev Stat
§ 2C: 13-3 (2013) to cite three, this speaks to how roundly egregious defendant’s
unlawful self-serving False Claims conduct is.

NJFCA § 2A:32C-17 provisions also found in 31 U.S.C. § 3729-3733 remedies
defendant’ substandard (that is, more accurately, deliberate dismissal of court standards)
screening service practice of equating the mere presence of their physician/psychiatrist
(in the (/a) crisis team interchange) as sufficing the clinical examination requirement, and
repairs damages sustained by the person so exploited in defendant’s scheme to defraud
the government.

ii).The procedural requirement of a court order upon the institution of involuntary
commitment stipulates the basis for a grant of that order. It is founded on two clinical
certificates - certifying statements of a clinical evaluation by two physicians. Court
standards demand a clinical examination be personally executed by the certifying the
psychiatrist or other physician. These certifying statements must be established in clear
and convincing facts before the examiner personally - i.e. first hand and, or to put
another way, the mandate for the certifying physician to have personally executed the
clinical examination, is rigorously upheld in NJ laws. DiGiovanini v. Pessel, 104 N.J.
Super 550, 250 A.2d 756 (A.D. 1969) affirmed in part, reversed in part 55 N.J. 188
[(1970)], 260 A.2d 510. In fact, the definition and legal standard of a ‘screening
certificate’ is a ‘clinical certificate executed by a psychiatrist or other physician affiliated
with the screening service’. § 30:4-27.2y.

Nothing of this standard allows for the screening service’ certifying physician to
substitute or use another professional’s assessment of the patient/person for the required
personal clinical evaluation. Not a law enforcement officer’s personal observation (as to
N.J.S.A. 30:4-27.6(a)) - a matter that is particularly damning in this case whereas this
defendant’s False Claims out and out lied that I was brought to the screening centre by
the police secondary - yet another fabrication, of - threatening behaviors NONE of which
purported to have been reported by the police is found in the police report (see, Ex.3); nor
is a mental health screener’s assessment, N.J.S.A. 30:4-27.5(b) a substitute for the
clinical examination personally done by the provider’s physician /psychiatrist as
DiGiovanini v. Pessel teaches.
41

Defendant, St. Joseph’s Medical Center, the screening service provider’s adoption of the
screening assessment as substitute for the personal examination of the certifying
physician is unlawful, not competent for clinical evaluation standards. Moreover,
whereas this False Claims healthcare provider has full knowledge of the standard of the
service they are funded to provide, this willful negligence is a matter of intentional
fraudulent malicious medical malpractice. In both defendant’s letter (Ex. 1) and
fabricated certifying statements (Ex.4a) the Court finds that this screening service
provider’ dismissal of legal standards in its fraudulent pursuit of government funds is
conduct compounded with trespass of constitutionally protected rights.

Due process, roundly aggrieved in this provider’s holding that its certifying psychiatrist’
physical presence of the 4-person crisis team interchange and is somehow substantive of
the required personal clinical exam whereas she did not conduct the standard test for the
presence of a mental illness and at no point troubled to ascertain particular facts - clear
and convincing evidence - that the patient / plaintiff poses a threat to self, others, or
property - Dr. Jennifer Taylor’ fraudulent malicious medical malpractice could therefore
only descend to the False Claims maneuver of her manufactured certifying statements.

Absent the necessary clinical evaluation, Dr. Taylor’s certificate relied on fabricated
claims. Where at § 30:4-27.2r the State’ requirement for mental illness mandates the
presences of current, substantial disturbance in thought, Dr. Taylor lied completely to the
court in her invention that plaintiff is paranoid, irrationally fearful of telephones and
emails, (id. at Ex. 4a) At No point did I state, expressly or implicitly, this to her. The
42

psychiatrist asked me Nothing of this. She asked me nothing regarding anything to be
exact. The extent of my interaction with her was listening to her single-sentenced
concurrence with my reasoning to have gone to ‘jail’ versus the ‘hospital’ (see above); as
for questions, I was the one to put one to her, and that request was for her to give me the
facts determining a need for involuntary commitment to treatment / “why” am I being
sent to a STCF? A question to which she did not respond - gave no answer, at all.

I was surprised to learn from the habeas corpus of the manufactured statement of [my]
paranoia, my extreme fear telephones and emails. It is so completely untrue and at no
time did I have any conversation with anyone about this nonexistent condition that this
invention, expedient to fill the ‘presence of disturbed thinking’ requirement, is prima
facie False Claims as a matter of intentional malicious medical malpractice effecting
among other damages complained of, the emotional harm of the false imprisonment / the
unlawful commitment at the STCF.

Defendant’s certifying psychiatrist’ intentional malicious malpractice continued in the
fabricated statement she brandished before the court to substantiate that plaintiff is in
need of commitment to treatment due to danger to self, in her manufacture, ‘ [plaintiff]
does not eat, sleep, or take care of herself. Again, this condition is wholly unknown to
me.

Exploitive and self-serving defendant’ psychiatrist would manufacture a diagnosis of
bipolar disorder founded on NO symptoms at all. Outright fraud, this wholly invented,
expedient - intentionally incompetent medical/clinical diagnosis of defendant’ False
43

!

Claims illegalities.

iii) New Jersey Statutes § 30:4-27.1 et seq. were extensively violated in the significant
due process denials of the screening facility’s False Claims statements to the court;
further, in that these frauds served to get payment from/ keep government funds to, the
hospital for screening services, defendant is liable under Sections 1 through 15 and
sections 17 and 18 [C.2A:32C-1 through C.2A:32C-17] of NJ codes governing State
funds to screening services; and New Jersey’s Health Care Claims Fraud Act at N.J.S.A.
2C:21-4.2 & 4.3; NJS 2C:51-5 accords with N.J.S.A. 30:4D -17(a)-(d) to grant plaintiffs
civil damages demand.

The False Claims acts as to § 3729 (a) 1(A)(B) evinced herein, where defendant, St
Joseph’s, the screening service provider, perpetrated False Claims frauds in making false
or falsified statements of a certifying report and further billed for services falsely claimed
to have been rendered, additionally, knowingly facilitated the perpetuation of further
false claims so that benefited also codefendant the STCF used in their referral for
commitment; the complaint states, federal laws are intolerant of kickbacks in such
arrangements as this where the FCA necessarily involves another, as here where the
screening service and the STCF to which they refer have a mutual symbiotic FCA
relation. 42 U.S.C. §1320a-7b(b)(2) states that it is unlawful to knowingly or willfully
refer of an individual for a service for which payment may be made in whole or in part
from a Federal health care program. The court notes here the importance of the
prohibitive proposal above to have the second of the two clinical certificates for the

temporary commitment order done by an independent psychiatrist - not affiliated with
either the screening service or STCF.

Defendant’s False Claims rush to commit plaintiff substantiated in intentional malicious
medical malpractice, resulted in the false imprisonment of plaintiff. The screening
service’ psychiatrist failed to examine plaintiff and temerariously defied due process,
constitutional grants, and of course, court standards, any legal requirement to establish
need for involuntary commitment or need for involuntary commitment to treatment in the
psychiatrist’s perjured statements to the court, the malicious purposeful false and falsified
statements of her certificate for the order intended to place plaintiff in a restrictive
environment.

The elements of false imprisonment are set forth in the Restatement, (Second) of
Torts, §35(1965):
(1) An actor is subject to liability to another for false imprisonment if (a) he
acts intending to confine the other or a third person within the boundaries
fixed by the actor, and (b) his act directly or indirectly results in such a
confinement of the other, and (c) the other is conscious of the confinement
or is harmed by it.”
Quoting, Fair Oaks Hospital v. Pocrass, 266 N.J. Super, 140,628 A. 2d 829 (L.1993)
In this false imprisonment is evinced too, a ‘referral’ that would ‘validate’, however
fraudulently, the screening services public need, meant to justify government funding
for this service - in total abuse of the system to defraud the government. 31 U.S.C. §
§3729- 3733 is joined globally by federal laws in condemning defendant’s conduct.

II. DEFENDANT RW.T BARNABAS HEALTH CONTINUES THE HEALTH
CARE PROVIDER’S PRACTICE OF FRAUDULENTLY OBTAINING MONEY
FROM GOVERNMENT FUNDED PROGRAMS AT ITS SHORT TERM CARE
FACILITY OF THIS COMPLAINT. CLARA MAASS. DEFENDANT’S FALSE
CLAIMS CONDUCT IS SUBSTANTIAL FOR THE SERVICE’ VIOLATIONS OF
CIVIL RIGHTS. DISMISSAL OF DUE PROCESS. PERPETRATION OF
INTENTIONAL MALICIOUS MEDICAL MALPRACTICE OF A FALSE
DIAGNOSIS FOR THE PURPOSE OF FORCING MEDICATION.
SUBSEQUENTLY FORCED MEDICATION. FALSE IMPRISONMENT. AND
VIOLATED OTHER LAWS SUCH AS DELIBERATELY PREVENTING
PLAINTIFF FROM SPEAKING TO THE COURT. DEFENDANT MADE
BILLING CLAIMS TO PLAINTIFF AND GOVERNMENT FUNDED
PROGRAMS FOR THESE FRAUDS PER SE AND FOR THE TIME OR
DURATION OF THE FRAUDS . I.E. EACH DAY PLAINTIFF WAS SUBJECT
TO THESE FALSE CLAIMS ACTIONS AT THE FACILITY

i)Whereas the screening facility’ clinical certificate False Claims violations dismissal of
court standard for probative facts, clear and convincing evidence that establishes the
certifying statements for the necessary court order is a matter of denying procedural due
process in not performing the clinical examination, the STCF’ False Claims founded
clinical certificate defied court standard for any proof for its certifying statements before
the court, as a matter of violations due process more weighed as to substance over
procedure. In Poe v. Ullman. 367 U.S. 497, 540 541 (1961) Justice Harlan for the dissent
argues that constitutional guarantees of due process are not limited to guarding
procedural fairness, writing, “[due process] in the consistent view of this Court has ever
been a broader concept.... Were due process merely a procedural safeguard it would
fail to reach those situations where the deprivation of life, liberty or property was
accomplished by legislation...”, and goes on to develop that due process guarantees are
not confined to the mere ‘operation’ of legislation, they are much more encompassing,
46

meant to protect the substance of the freedoms they guard, the ‘enjoyment of all three’;
wherefore, the prerogative of due process safeguards against deprivation of life, liberty or
property are more far-reaching than procedural compliance.

Of the three, plaintiff was deprived liberties, resultant substantive due process denial. In a
feigned clinical examination, the STCF’ psychiatrist simply disregarded any of my
answers to his questions. As put, I might as well not have been present at the
examination for all the regard to my denial of any symptoms of a mental illness and the
allegations of dangerousness. So that, my denial of being afraid of telephones and emails
(a strong denial given my surprise of a condition so unknown to me) was ignored, used
rather for a general paranoia of technology - a broader content of ‘disturbance of
thought’; codefendant’ fabricated lack of self-care (also completely unknown to me) was
left to stand for ‘danger to self; further, that the police report relied on to corroborate
these FC actors’ ‘danger to others’ actually supports my denial of the caller’ now
admitted fabrication of a threat, substantiates that this false claims actor’ procedural
evaluation’ denial of the required court standard of examining for facts (probative or not)
that must establish the presence of a mental illness and that that mental illness has caused
me to be dangerous, is a denial of due process.

The STCF did note the lack of a psychiatric history /treatment - no presenting psychiatric
issue; however, seasoned False Claims actors we find that the facts are completely
irrelevant to this healthcare provider. State mandates for the particular /clear and
convincing facts to establish the court determiners for need for involuntary commitment
47

to treatment are falsified to the court in defendant’s perjurious pursuit for the necessary
order. RWJ Barnabas Health’ STCF treatment team psychiatrist by acts of omission
falsified the facility’s certifying statements for the temporary order of commitment. More
active false claims illegalities would follow. The screening service’ incompetent
(/invented) diagnosis of bipolar disorder was left undisturbed, despite the examining
psychiatrist’s expressed acknowledgment of the lack of clinically needed psychiatric
history (the absence of manifest symptoms of the disorder spoken of below), reminiscent
of-by omission- his falsifying the certifying statement of paranoia, even after responding
to plaintiff s denial of codefendant’s manufacture, by saying this condition relates to
someone else - not plaintiff, whereas, he was ‘reading someone else” chart. The
psychiatrist would subsequently build on this nonexistent mood disorder in further
compounded falsehood of the fabrication of a diagnosis that combined the nonexistent
mood disorder to wholly absent symptoms of schizophrenia for the False Claims
purposes of forcing medication, longer stay at the facility, and tests for monitoring the
drugs. RWJ Barnabas Health’ short term care facility (STCF), Clara Maass failure to
execute the standard clinical evaluation stipulated in N.J.S.A. 30:4-27.1 et seq in
substantial due process violations of intentional medical malpractice, ratified and
capitalized on in further False Claims practices, the perjured screening certificate of
codefendant, St. Joseph’.

The STCF duly questioned plaintiff within 72 hours of admission, as procedurally
required, but whereas the examination dismissed the standards of R. 4:74-7(b) that reads:
“The two certificates required for commencement of an action [for involuntary
48

commitment or involuntary commitment to treatment] must state with particularity the
facts upon which the psychiatrist, physician or mental health screener relies in concluding
that (1) the patient is mentally ill, (2) the mental illness causes the patient to be dangerous
to self or others or property as defined by N.J.S.A. 30:4-27.2(h) and 27.2(i), and (3)
appropriate facilities or services are not otherwise available. R. 4:74-7 (b) (3)(A).” (THE
INVOLUNTARY CIVIL COMMITMENTS RESOURCE BINDER- OF NEW JERSEY
COURTS),
the STCF’ sham clinical exam is in abject denial of substantive due process. M.M.. 384
N.J. Super 313, 894 A.2d 1158 (A.D. 2006)

The STCF’ certifying psychiatrist deliberately withheld information on the certification
that would prevent a mental illness diagnosis and falsely claimed that plaintiff had
symptoms I expressly denied. Further, the STCF’ psychiatrist manufactured a set of
symptoms found nowhere in plaintiffs medical history- that is, the STCF fabricated a
diagnosis (expedient for forcing medication) that manufactured symptoms in addition to
codefendant’s already fabricated ones. Defendant, the STCF’ substantive due process
violations in the sham clinical evaluation intended to certify need for their service,
grounds plaintiff s complaint that she was denied the required and standard clinical
examination of the STCF’ certification, Plain v. Flicker. 645 F. Supp. 898 (D.N.J. 1986)
arguing among other issues, “The Fourteenth Amendment of the Constitution provides in
part that no state shall deprive any person of life, liberty or property without due process
of law; nor deny to any person within its jurisdiction the equal protection of the laws.
[And upholds this complaints remedy demand under] Title 42 U.S.C. § 1983 [that]
provides a remedy for deprivations of rights secured by the Constitution and laws of the
49

United States when deprivation takes place "under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory...." Defendant’s liability is further
sustained under section 1981 (c) of Title 42 and 18 U.S.C.§ 242 that in this matter of
intentional tort by government funded program providers, the deprivation of
constitutionally protected due process in expressed violation of state regulations - under
color of state statute, defendant submitted to the court perjured statements for the
necessary court order - for the abusive purpose of false imprisonment that would then be
used in defendants False Claims billing for government funds. See, West v. Atkins. 487
U.S. 42 (1988); Lumr v. Edmondson Oil Co.. Inc.. 457 U.S. 922 (1982); and Griffin v.
Breckenridge, 403 U.S. 88 (1971) for the competence of plaintiff liability claims against
defendant’/ this government funded service provider’ color of law False Claims practices.
Applicability is further invoked under this remedial statute of Title 42 - codified
provisions of The Public Health and Welfare - whereas remedy is also sought for
institution of regulations that protect the public at large from defendant’s practice of
deprivation of constitutionally guarded due process freedoms. Recall complaint’
proposals for statutory changes to instant healthcare providers’ that effectively prohibits
defendant’s False Claims practices by diverting funds to the called-for ‘per diem’
program for a truly independent physician to second the screening service’ certifying
statements. Instant matter shows defendant’s False Claims practices to be substantiated in
civil rights violations, deprivation of constitutional freedoms, acts that in addition to
individual harm defraud the government. As a matter of public interests, in keeping with
Congress’ 2005 Deficit Reduction Act (healthcare services False Claims frauds are a
50

major drain of government funded Medicaid) plaintiff asks for implementation of
complaint’ proposals.
ii) The STCF certifying psychiatrist, one Dr. Adarsh Reddy’ perfunctory examination
rises above the mere rote (and/or innocuous) execution of a duty, it initiated what
characterized Clara Maass healthcare service provisions to committee: marked intentional
malicious medical malpractice in round False Claims practices. With calculated purpose
defendant’s certifying psychiatrist maliciously did not establish the existence of a mental
illness and made no attempt to ascertain clear and convincing facts that plaintiff is
dangerous to self, others, or property because of that illness as required by statute.
Dr. Reddy’ certificate of plaintiffs need for involuntary commitment to treatment at
Clara Maass manipulated set legal standards by the State - in willful, deliberate fraud and
abuse to get money from government funded programs. § 2A:32C-3. Dr. Reddy’s
medical malpractice of fraud, deception, and misrepresentation (N.J.S.A. §§ 45:1 - 21 (b)
and (o)) at Clara Maass profited defendant in its charges to Medicaid and public Charity
funds in these False claims, and that with abandon. This matter evinces in RWJ Barnabas
Flealth’ fraudulent schemes here a billing practice reminiscent of ‘price gouging’ or
variant thereof, where this healthcare provider charges increases overtime by multiplying
the original bill several times over. See, Ex. 12a, b & c, where plaintiffs portion of
defendant’ bills to Medicaid and Charity funds for the same service went from $524.00
on l/14/19(Ex,12 a) to $2,446.00 four weeks later on 2/ll/19(Ex.l2 b), by April 8th ’19 it
was $2,650 (Ex. 12 c).

Plaintiff asserts that defendant (like codefendant) is liable for false imprisonment.

In violations of Constitutional protected due process guarantees RWJ Barnabas Health
built on the False Claims of codefendant St. Joseph’s, which abusive irregularities
resulted, as intended, in plaintiffs commitment - imprisonment at the STCF - clearly,
false imprisonment, Restatement. (Second) of Torts. § 35 (1965); Fair Oaks Hospital v.
Pocrass, 266 NJ. Super, 140,628 A. 2d 829 (L.1993). Plaintiffs damage claims are
proper for this “profound and dramatic” confinement resultant deprivation of federal
guarantees. A further quote from Fair Oaks,

“... involuntary commitment the confinement of people who have committed no
crime and have not in any way violated the rules of our society is a profound and
dramatic curtailment of a person's liberty and as such requires meticulous
adherence to statutory and constitutional criteria. In fact, the United States
Supreme Court has time and again recognized this proposition that a great
deprivation of liberty results from involuntary civil commitment...”

Defendant’s dismissal of standard for probative facts on which to conclude the mental
illness and dangerousness requirements for commitment has profound repercussions. In
O'Connor v. Donaldson. 422 U.S. 563, 575-76, 95 S. Ct. 2486, 2493-94, 45 L. Ed. 2d 396
(1975) the court speaks of the right of the “non-dangerous person to be free from
confinement in a mental hospital”. The case would set federal standards in the context of
due process protection for such deprivation of liberties as framed in Constitutional
provisions of the Fourteenth Amendment.

Neither defendant proffered any particular fact that plaintiff is a danger to self, others or
property. Like their codefendant service provider defendant denied due process as
argued, in the service’ failure to examine for the facts of its certifying statements and

52

reliance on the police report, however irregular (see, DiGiovanini v. Pessel above), that
counters the False Claims actor’s statements of dangerousness. Instant False Claims
actors completely fabricated claims of dangerousness - the one of danger to self
particularly inventive, arising from nowhere - danger to others or property denial of the
fact that this is made-up by the caller to the police whose report did not carry this
fabrication. The police observed nothing that supported the caller’s fabrication. (Ex. 3)

In this False Claims matter, defendant RWJ Barnabas Health ‘maliciously adhered’ to
skilled False Claims practices (as opposed regulations / statutes) and in this, the
healthcare service perpetrated several violations of N.J.S.A 30:4D - 1 et seq. in fraud and
abuse as to State law, C.2A:32C-1 through C.2A:32C-17 adopted from federal codes of
31U.S.C. §§ 3729-3733.

RWJ Barnabas Health’ treatment team psychiatrist in pursuit of government funds for the
STCF services, fraudulently/ maliciously did not correct an acknowledged (and that by
the psychiatrist himself) manufactured (from co-defendant, the screening service) thought
content disturbance - a needed element for mental illness as defined at N.J. S.A. 30: 427.2r. Where the screening certificate fabricated that plaintiff is paranoid of the telephone
and email, Dr. Reddy’ response to plaintiffs expressed denial of this was to say that he,
Dr. Reddy, was ‘reading someone else’ chart - (not plaintiffs) Unscrupulously however,
plaintiff learned later, Dr. Reddy’ clinical certificate recorded this denial as plaintiff fear
was of ‘technology’ in general, his own falsification of the invented expedient claim for
the commitment court order.

53

Expediently also, the STCF’ certification left undisturbed the screening service’s
fabrication that plaintiff does not care for self - as substantive for ‘dangerousness to self.

Court standard for ‘particular fact’ was quite immaterial to either defendant for
substantiating either mental illness or dangerousness - and logically therefore the
requirement of that that mental illness causes plaintiff to be dangerous.

Plaintiff s denial of violence or threatening behavior to the caller of the
fabricated police report would not prevent the falsifications by defendant(s) that plaintiff
is ‘dangerous to others’. The False Claims action of the STCF (like the screening
service’) dismissed assessing for/verification of the facts of this ‘dangerousness’
standard. N.J.S.A. 30:4-27.2i. That the police found nothing supporting the allegations
made by the caller was not considered (for all the screening service’ note that “no knife
was found”). The police responding to the call investigated the allegations and found
nothing substantiating them. Additional falsification of “dangerous to others” state
plaintiff ‘sprayed Lysol in her mother’s face’ (Ex. 4a) To my certain knowledge I have
never used Lysol in any capacity - not even while getting advanced credits in organic
chemistry in college. A complete fabrication, I had no knowledge of this further
allegation by the caller until reading the certifying statements of instant False Claims
actors / defendants). In that the caller retracted her allegation of threat, the police found
no support for it - in true False Claims mode, defendants expediently omitted this
information in falsified certifying statements to the court, in NJFCA violations.
54

The matter of D.C.. 146 N.J. 31, 679 A.2d 634 (1996) teaches that the final decision on
‘ dangerousness ’ for involuntary commitment to treatment is a legal, not medical one, and
is established in ‘clear and convincing’ facts of the courts’ set standards. N.J.S.A. 30:427.2i, h, & m. Whereas the police responding to the threat allegations found nothing of
plaintiff posing a threat / physical risk to another and the caller herself retracting the
allegation, there is nothing supporting the standard for ‘substantial dangerousness’.

iii)That plaintiff threw food items in a garbage bin (held in the certificates as ‘particular
fact’ of destruction to property / ‘clear and convincing evidence’ of substantial
dangerousness) is refuted in the fact that the garbage bin is a normal, appropriate
receptacle for food thrown away, no one was present (/caller) was not present when the
food was being thrown out - no one was in the path of the objects tossed in the garbage,
and neither the garbage bin nor any property was destroyed in the process. The final
written police report carries nothing of this non-probative for ‘danger to property’ held in
the certificates. (Ex.3) There was no destruction of property, let alone the required
‘substantial destruction of property’. See, M.G. 331 N.J. Super 365, 751 A. 2d 1101
(A.D. 2000); see too, the State v. KroL 68 N.J. 236, 344 A.2d 289 (1975) where the court
labors the importance of establishing ‘substantial dangerousness’ for certifying a need of
involuntary commitment or involuntary commitment to treatment as opposed criminal
‘dangerousness’ to distinguish the need for treatment of the psychiatric/psychological
malady that causes the committee to be dangerous from public safety responses to
/incarceration regarding criminal acts of danger.
55

iv)Defendant’ STCF Clara Maass began the unlawful forced drug treatment of plaintiff
on or about the 10th day of my20-day period at the facility. The treating psychiatrist, Dr.
Reddy, implied some grasp of the medical incongruity of medicating nonexistent
symptoms vis a vis his answer to plaintiff question of that the given diagnosis was
“tentative bipolar disorder” and qualified ‘tentative’ in the expressed disconcerting
business of plaintiff having no presenting psychiatric history/treatment, clinical manifest
- no symptom to base the diagnosis.

The mental disorder/illness of bipolar disorder (I or II for that matter) is not concluded on
an isolated event nor is this mood disorder determined in a single perturbation of affect.
The clinical manifestation of grouped affects /a set criteria of presenting symptoms must
have occurred over a given time to establish the diagnosis. Indeed, “bipolar disorder is
characterized by unpredictable mood swings from mania (or hypomania) to depression”,
the grouped mood disturbance of manic episodes must be sustained for at least a week
(outside of hospitalization); and there must also exist the other pole of the swing to
depression. These mood fluctuations are chronic for at least (2) two years before a
diagnosis of bipolar is given. {Harrison’s Principles ofInternal Medicine, 16th Edition,
pp. 2556-2559, referencing the Diagnostic & Statistic Manual (DSM IV) Another
diagnostic guide of the current International Classification of Diagnosis 10th Revision
(ICD-10), places the emphasis on the ‘repeated-factor’ of the mood fluctuation (it must
have occurred more than once (it must have a “repeated” history)) for the bipolar disorder
diagnosis.
56

Wherefore, as to “grouped affects”, the certificates’ specious insert of ‘impaired
judgment’ in plaintiff records must be accompanied by at least three other (four if the
mood is ‘irritable’, again, spuriously stated in plaintiffs records) of the criteria given in
the Diagnostic & Statistic Manual (DSM) for the mood disorders competent for a bipolar
disorder diagnosis.

The medical malpractice / clinical malicious (i.e. willful) neglect of defendants’
psychiatrists False Claims conduct here are particularly egregious, whereas, this is meant
to force non-indicated drugs on the person/patient exploited, actually exposing the
individual to medical risks. Defendants’ psychiatrists’ is reasonably assumed to know
that the manufactured claims that plaintiff is ‘impaired’ and ‘irritable’ cannot conclude a
diagnosis of bipolar based on single isolated mood, clinical competence must show
grouped mood of the two poles, if you will, of mania /hypomania to depression over
time, the mood fluctuation must have been repeated. The psychiatrists’ cold, calculated,
malicious falsification of certifying statements for the purpose of defrauding the
government of funds allocated for the public healthcare services, has realized, as
intended, profit for their respective defendants.

The False Claims actions in this is self-evident and the physicians are also individually
liable for malicious medical malpractice. In addition to State provisions, federal laws at
31 U.S. Code § 3802 hold defendants liable for their respective manufactured diagnosis
of False Claims conduct.

v) For all defendants’ efforts of False Claims in the fabricated mental illness, the validity
57

of the clinical certificates is extinguished under Constitutional bars to the State’s ability
to commit without proving danger. It is argued herein the incompetence of the willful
falsified certifying statements that deny the standard of dangerousness.

The Court instructs that the State may not commit solely on the basis of a mental illness,
dangerousness must also be proved. &L.94 N.J. 128, 462 A. 2d 1252 (1983). The
falsified certifications of each defendant failed both to establish the existence of a mental
illness / that plaintiff is mentally ill, despite their respective diligence in fabricating
symptoms -and as to proving danger, neither proffered anything probative of plaintiff
being dangerous to self, others, or property.

vi)The “substantial [mental] disturbance” of New Jersey State requirements of the
certifying statements in pursuit of an order for involuntary commitment to treatment (§
30:4-27.2r) manufactured, fabricated, falsified by defendant, the screening services, St.
Joseph’ to satisfy this requirement was more aggressively manipulated / substantially
maliciously capitalized on by defendant, RWJ Barnabas Health’ STCF, Clara Maass.
The STCF treating psychiatrist not only knowingly kept the false diagnosis of the
screening facility, he added to it, this by manufacturing the simultaneous manifestation of
symptoms of a whole other mental disorder - for the sheer purpose of forcing medication.

Plaintiff was not medicated during the first Vi or so at the 20-day confinement at the
STCF. This was not without threat from the facility’ psychiatrist, Dr. Reddy, that the
facility would forcibly drug plaintiff. Plaintiff claims mental anguish in this, but further,
civil rights violations. In a treatment team meeting that addressed this, plaintiffs move to
58

legally guard her right to refuse medication - specifically, plaintiffs statement that she
would speak to the court about this and let the court decide the need for drug treatmentwas thwarted by this physician in his removing plaintiffs name from a list of patients
scheduled to see the judge that Friday (i.e. the Friday of the week of this treatment team
meeting), in defiance of governing civil principles that guard against deprivation of rights
under color of law and that with use of force/threats -18 U.S.C.§ 242 - as to this
provision, generally; and reliance on 42 U.S.C. § 1983 cites above Zinermon v. Burch,
494 U.S. 113 (1990) with Parrat v. Taylor. 451 U.S. 527. 535-36. 101 S.Ct. 1908, 19121913 68 L.Ed. 2d 420 (1981) for Justice Blackmun’(joined by Justice White in the latter)
denouncement of the ‘intentionality’ of the {state} actor to deprive of protected
freedoms. Liability of instant perpetrator/actor in the employ of this government funded
healthcare service (the FCA violations are for those funds, incidentally) speak here to
defendants’ False Claims under color in violating plaintiffs constitutionally protected
due process privileges.

RWJ Barnabas Health’ characteristic defiance of civil laws and regulations in its
fraudulent healthcare service is too of NJ laws at L.1965, c. 59, s. 10. Amended by
L.1975, c. 85, s. 2, eff. May 7, 1975/ N.J.S.A. 30:4-24.2 that guard against the provider’s
wanton disregard for and violations of the committee’ freedoms. Governing regulations
grant that the patient has the right to be free from ‘unnecessary medication’ and these
statutes uphold the right of the committee to competently decide that question. Informed
consent federal guards apply here as provided in 42 U.S.C. § 9501(1)(A)(i)(ii).
59

These civil principles defend against the assumption of mental incompetence of the
mentally ill. N.J.S.A. 30:4-27.1 lc. Defendant’s unscrupulous behavior was to falsify a
mental disorder diagnosis that would import mental incompetence that under color of law
allows defendant to force medication - a False Claims action (fabrication of a diagnosis
to bill for related services) in or by denial of civil rights (preventing plaintiff from
speaking to the court).

Defendant’ measure to prevent plaintiff from speaking to the court of the need for drug
treatment (“let the court decide”) is a violation of rights founded in the provisions of state
statutes and federal codes. N.J.S.A.30:4-24.2g (1) inviolably defends the right of the
patient to communicate with the court, and that, moreover, in the context of a STCF
possible grounds to deny the freedoms of these statutes.

The complaint draws the court’s attention here to State provision § 30:4-27.1 Id that
guards against the psychiatrist ‘overriding’ the patient’s right to refuse medication
treatment and to M.M., 384 N.J. Super 313, 894 A.2d 1158 (A.D. 2006) where the Court
roundly denounces infringing on the rights of the committee.

RWJ Barnabas Health’ violations of State and federal laws in this matter of False Claims
and the facility’s psychiatrist’s malicious medical malpractice are particularly egregious
in its cumulative, compounded irregularities / illegalities. Not only did the STCF prevent
plaintiff from speaking to the court, the psychiatrist fabricated the diagnosis of a
“schizoaffective disorder”. In this he expediently added symptoms of schizophrenia to the
existing false bipolar disorder.

Schizoaffective disorder is defined in manifest symptoms of schizophrenia plus
independent mood disturbance. (Id. at Harrison’s above. Italics added) It is schizophrenia
- clinically manifest symptoms that conclude the diagnosis of schizophrenia (as opposed
just schizophrenia-like symptoms that do not meet the diagnostic criteria, as in
schizophreniform disorder) - simultaneously manifested with those of a mood disorder.
(See, ICD-10).

Statutory provisions for the right to refuse medication, defer to the need of a patient who
may not be competent to make that decision, so that whereas N.J.S.A. 30: 4-24.2d (1)
upholds the rights of the mentally ill to be ‘free from unnecessary or excessive
medication’, the STCF may deny the privilege to refuse medication with good cause
shown - assessed in the patient’ mental competence at the time. Manifest symptoms of
schizophrenia would be ‘good cause’ since this would be determinative of mental
incompetence.

The insidious maliciousness of this defendant in this is that whereas “No patient may be
presumed to be incompetent because he has been examined or treated for mental illness,
regardless of whether such evaluation or treatment was voluntarily or involuntarily
received” N.J.S.A. 30:4-24.2c , defendant, RWJ Barnabas Health falsified a diagnosis of
schizophrenia in addition to the wholly fallacious bipolar disorder. The grossly
incompetent, in fact fabricated diagnosis of bipolar (the instant affective disorder) not
probative for ‘good cause’ to force medication, RWJ Barnabas Health maliciously added
the necessary schizophrenia.
61

(The argument that bipolar disorder is at times accompanied by symptoms of delusion,
paranoid thinking, and hallucinations indistinguishable from schizophrenia is too frail to
prevail over and against that of professional competence that would assume the
psychiatrist’s ability to distinguish and conclude a diagnosis of schizophrenia from
schizophreniform disorder where schizophrenia-like symptoms are present but do not
meet the clinical diagnostic standard of schizophrenia or where schizophrenia-like
symptoms are present as symptoms of another diagnosis altogether.

As pointed out, schizoaffective disorder is schizophrenia with a mood disorder. The
mood disorder of instant complaint is put as of bipolar disorder. However, schizophrenia
-like symptoms may accompany other mood disorders, depression or depression
secondary a physical malady. Clinical depression of a person with Parkinson’s disease for
example would qualify for the latter ‘depression mood disorder’. Should this person also
experience hallucination - a schizophrenia-like symptom - based solely on that - it is
incompetent, a diagnosis of a schizoaffective disorder. The point is the diagnosis of
schizophrenia must be established (and be present with the mood disorder) for a
schizoaffective disorder.)

vii) Defendant, RWJ Barnabas Health has what it calls a two-step program that the
provider employs -with unwavering consistency- to force medication at Clara Maass.
Plaintiff was told only of the diagnosis of “tentative bipolar disorder” at the time I
refused medication and was prevented from appearing in court. The STCF facility
subsequently declared plaintiff mentally incompetent by virtue of the fabricated presence
62

of schizophrenia conveyed in the schizoaffective disorder manufacture.

In defendant’s 2-step program, the treating physician’ prescription is seconded by an
‘independent’ physician to forcibly drug the patient. Plaintiff was prescribed, Lithium,
Haloperidol (Haldol), and Benzotropine (Cogentin) by the STCF’ Dr. Reddy. It was
‘seconded’ by a physician, plaintiff understands, that has been working with Clara Maas
in that ‘independent’ physician role for many years - and is the only ‘independent’
physician the facility has for this 2-step purpose. Once the treating psychiatrist’s
prescription is seconded, the patient is then forcibly injected with the drugs if the patient
continues to refuse. The facility has no scruple about physically restraining the patient in
this False Claims push to get paid for fabricated healthcare service need. In this case two
nurses were present, one to ‘hold down’ plaintiff while the other inject the drugs; I agreed
to take the drugs orally and so prevented this barbarous illegality.

Upon administer of lithium (a standard for bipolar) I suffered the rare side effect of a
cardiovascular event, in my case - increased heart rate and increased blood pressure. That
drug was immediately stopped. Haldol (a standard for schizophrenia) and Cogentin
(normal to reduce side effects of these antipsychotics) were continued.

viii) Plaintiff’s inability to refuse Haldol at RWJ Barnabas Health’ STCF, Clara Maass
was alarmingly standard procedure at the facility. Every fellow patient I spoke with, or
heard of, was on this drug, and in many cases, like plaintiff, was prevented from refusing
it. The “right to refuse meds” was upheld for other drugs - but not for Haldol. This push
to prescribe Haldol in particular gives rise to possible other illegalities than False Claims
63
!

defendant might be using here to get money - not from the government but the drug
maker. A criminal act if the facts prove racketeering that would concern this court
because of patients’ civil rights denial employed in this scheme.

The complaint asks the Court at this juncture to look at this defendant’s history of
previous False Claims conviction. RWJ Barnabas Health, NJ’ largest health care
provider was formed in 2015 from a merger of St. Barnabas Medical Center (then NJ’
largest healthcare provider) and RWJ University Hospital Hamilton. In 2006, St.
Barnabas Medical Center paid $265 million dollars in penalties to satisfy a qui tarn False
Claims suit. In 2010, RWJ University Hospital Hamilton paid the government $6.3
million dollars in similar penalty charges. The merged entity is operating as a not-forprofit corporation. As mentioned above, as part of the settlement requirements, RWJ
Barnabas Health established a ‘corporate-compliance’ hotline to deal with complaints
such as this. Characteristic of this defendant, the ‘compliance’ initiative is only as to
appearance, substantively, it does not do what it purports to do. Recalling this argument’
substantiation of this seasoned False Claims defendant’s way of operating: procedure or
appearance of compliance- as in the feigned clinical examination procedure, done within
the set 72 hr. of admission but wholly dismissive of due process guarantees, facilitating
defendant’ False Claims irregularities under color. The service’ abuse of the system in
exploiting its consumers - the patient is a very serious public safety healthcare risk,
whereas the patient is unduly exposed to medication side effects that could be lifethreatening, I for one suffered a rare cardiovascular reaction to the forced and falsified
need for Lithium.
64

Defendant’s reckless continued False Claims practices are finally a matter of public
safety. The facility’s noncompliance with regulations intended for public safety places
the public at risk - health risks. In instant matter where the false diagnosis led to forced
medication - not medically indicated in the first place - a False Claims civil violation
resulted in plaintiff suffering a rare(and serious) side effect from one of the drugs.
Unnecessary and excessive drug treatment can be life-threating and the healthcare
service’ False Claims conduct - continued False Claims conduct - of this defendant, not
checked by monetary penalties of the over Vi billion dollars above, inescapably indicates,
plaintiff holds, the need to end to its career of defrauding government funded programs
for its services. The call is for an end of government funds for any of its programs (unless
and/or until the State assumes management of any and all its services where government
funded programs may be billed), and strict monitoring of any privatized healthcare
services it provides - in the interests of public safety, a matter of Public Health and
Welfare.

Further, under N.J.S. 2C:21-4.2 & 4.3 and N.J.S. 2C:51-5 of NJ Health Care Claims
Fraud Act the Court recognizes defendant’s conduct herein as indictable criminal.
Considering defendant’ 2-step program illegalities/criminal conduct, plaintiff asks for
federal investigation of possible racketeering at RWJ Barnabas Health with regard to the
provider’s ‘push’ (to use the colloquialism for the hospital’s “ marketing" of the drug) of
Haldol. Given defendant’ marked fraudulent and irregular behaviors it is entirely possible
that this provider has aligned itself with the drug-maker for the marketing of Haldol,
whatever the financial compensation for their service.
65

ix) Related False Claims codefendant St. Joseph’s also dismiss properly addressing
compliance complaints. Ex. 1 is the provider’ statement of conducting an ‘investigation’
into plaintiffs complaint of nonperformance of the service of a clinical examination for
which they billed. The ‘probe’, defendant asserts, concluded, [plaintiff] was “extensively
examined”. The facts of the matter evince otherwise. False, as argued, but the point is, it
is evident that these False Claims actors will not (or perhaps cannot) ‘police themselves’,
and it is wasteful therefore to continue to fund these healthcare services providers without
strict bars to prevent continued fraud and abuse. To reiterate, this business of checking
these healthcare services providers False Claims activities to stem government funds
waste is also a matter of checking risks to public safety.

Wherefore, in the interests of public welfare, the Court finds arising from this case, the
need for public law amendments that will effectively bar False Claims practices by a '
screening service provider as shown in the fraud and abuse of defendant, St. Joseph’s of
this case, and prevent a short term care facility, as defendant, RWJ Barnabas Health Inc..’
ability to abuse current regulations that allow them to sign the second of the two
necessary certificates. The complaint’ Preliminary Statements suggests implementing
measures for the second clinical exam /certificate to be executed by a psychiatrist /
physician not affiliated with either the screening service or STCF, that verbal recording
of clinical exams be done in a addition to the written account, and a full page of
statements listing the standard reasons for commitment to be verbally communicated to
the committee before a requisite signature of the committee. That is, the committee must

66

be told of the mental illness/diagnosis, the dangerousness (e.g. admitted thoughts /selfdeclared thoughts of danger to self, others or property and/or the material evidence of
this) because of the mental illness, the option of voluntary commitment needs to be
offered and /or explained why a less restrictive setting than involuntary commitment at a
STCF will not meet the person’ treatment needs. This additional page listing these
stipulations individually should be checked by the committee before signing the
certificate in acknowledgment of informed consent.

The Court appreciates the diligence of federal regulators in setting out legislation for the
proper appropriation of funds from government programs to healthcare service providers.
For instance, herein Fair Oaks gives.

“ A determination of whether a failure to comply with New Jersey's screening
statute constitutes a liberty deprivation require[d] a review and analysis of the
underlying intent and purpose of the new screening law. A special task force of
the National Center for State Courts established the Guidelines for Involuntary
Civil Commitments. The task force commented that:
The purpose of screening agencies is to provide an organizational and
administrative structure for equitable and uniform decision making about mental
health treatment and services ... [T]he aim of the screening is to facilitate getting
help for the individual referred, and not necessarily to help provide involuntary .
mental health services, [at the STCF / as in STCF referrals - plaintiff insert] That
is, the aim is to find the most appropriate mental health treatment, care, or social
services consistent with the individual's needs.
Guidelines for Involuntary Civil Commitment, 10 Mental & Physical Disability Law
Reporter at 427-29 (Sept./Oct. 1986)."

The argued fraud and abuse of NJ’ involuntary civil commitment guides by instant
screening service and codefendant RWJ Barnabas Health STCF gives rise to the need for
effective measures that will deter False Claims practice by these healthcare providers,
67

who dismiss altogether the “aim to facilitate the most appropriate mental health
treatment, care, or social services consistent with the individual’s needs” in irregularities
that actually compromise public safety.

Wherefore, the complaint’ proposal that where a screening service is used, the second
certificate in pursuit of the commitment order be executed by a neutral party - i.e. a
psychiatrist or other physician not affiliated with either the screening service provider or
the short term care facility. The proposed per diem program is cost-effective. It is
established for an on-call service for the independent/neutral psychiatrist/physician and
saves money by preventing manipulative behaviors of the STCF and also holds the
screening facility accountable in verifying the facts of the certifying statements. As
previously pointed out, False Claims acts defraud Medicaid of government funds than
other abuse of government programs. [ ]

The certificate should also be signed by the committee on a page outlining the full
disclosure of the certifying statements by the certifying physician. In addition to the
written record of the clinical evaluation, a verbal recording of it needs also to be on file to
be given the same protection under law as the written report.

The complaint further advances that the court order for involuntary commitment be
granted / exist before admission to the STCF. This measure does not do away with or in
any way replaces the required clinical evaluation within 72 hours of admission at the
STCF - that evaluation is amended for determining course of treatment - as opposed the
need for treatment /their service - for the reasons previously stated. The STCF has a
68

financial interest in declaring need for its service, and False Claims service providers as
the STCF of this case will sooner risk the patient’s health than turn away a source for
fraudulent bills.

A further proposed amendment is for the clinical certificates to carry a certifying
statement of penalty for perjury. By definition, False Claims actors falsify information
and in instant matter these false statements are submitted on a certificate to the court.
Penalties for perjury should therefore apply.

Defendant, RWJ Barnabas Health, Inc., New Jersey’s largest healthcare provider presents
a substantial risk in the sheer number of citizens exposed to its services. As labored, of
quantum importance is the nature of that harm. It is of exposing patients to medical risks.
That this provider is a merger following two major qui tarn False Claims Acts convictions
and instant matter evinces continued False Claims, the frauds and abuse of the system
upon which these False Claims bills are based - the false diagnoses that would allow for
unnecessary treatment, the indifference in wantonly placing patients at risk of the drugs ’
side effects, the use of this provider ’ 2-step program to maliciously force unneeded
medication and the level of risk they present all indicate swift deliberate response from
the federal government to stop further illegalities by defendant in this regard.
Further, the Court notes that this call for a quick, deliberate response to prohibit these
public-safety compromising False Claims actions is as to both defendants.

x) This complaint provides material evidence of RWJ Barnabas Health services’ ongoing
69

fraudulent and abusive False Claims practices for government and public programs funds.
Annexed are three of defendant’s bills to plaintiff that clearly placed charges to Medicaid
as well. Plaintiff is not on Medicaid. These bills also charged Charity care funds.
Plaintiff has never once applied for charity care. (Ex. 12a, b, &c) Defendant’s unfair and
deceptive billing practices are noted for this service provider’s extravagance in the
amount of money it tries to extort. RWJ Barnabas Health fraudulent charges to these
funds seem a kind of ‘price gouging’/variant thereof where the STCF charges increases
overtime, this by multiplying the original bill several times over. Exs. 12a, b, & c, show
plaintiffs portion of defendant’ bills to Medicaid and Charity funds for the same service
went from $524.00 on l/14/19(Ex.l2 a) to $2,446.00 four weeks later on 2/1 l/19(Ex.l2
b), by 4/8/19 it was $2,650 (Ex. 12 c). (Ex. 12c is the one used in calculating the damage
total.)

CONCLUDING STATEMENT
This argument substantiates denial of due process guarantees in violations of
constitutional provisions by defendants, St Joseph’ and RWJ Barnabas healthcare
services providers, in False Claims Acts practices that defraud the government of funds
from Medicaid, public funds from Charity care. The patient /plaintiff is additionally
billed in defendants’ fraudulent abusive scheme for services not rendered, charged for
defendants’ irregularities, exploitive practice.

31 U.S.C. §§ 3729-3733 and 42 U.S.C. §§ 1981 and 1983; respectively, the federal False
Claims Act codes and federal laws that come against deprivation of civil liberties under
70

color of authority that intentionally deny due process guarantees, grounds plaintiff s
liability claims. Defendants’ civil rights violations are purposed to extort. Civil rights
remedies are upheld in Title 42 whether the violence is ‘unadorned’ as in most cases of
physical aggression, or context in more elaborate schemes as here where it (the civil
rights violation) is employed in also defrauding the government.

RELIEF SOUGHT
WHEREAS the Court finds that False Claims frauds and abuse by healthcare service
providers put the consumer at serious safety risks where, for instance, a falsified
diagnoses to force medication and that medically not indicated drugs can literally be lifethreatening, this complaint seeks the previously argued amendments to regulations
pursuant a court order for commitment.

As for individual reparation, plaintiff relies on the robust set of provisions that remedy
the violations of this complaint. Pursuant §17 P.L. 1968, C. 30: 4d- 17 as amended NJ
codes adopts federal guides in penalties for violations of NJFCA state civil awards may
match federal compensation, §30:4D-17(e)(3).

Under, 31 U.S.C. § 3802(a)(1) (D)(B)(C), both defendants are punishable for each False
Claim count of false statements and false diagnosis of the perjured certificates. The
federal provisions for FCA liabilities codified in NJ statutes, § 30:4D-17(a)-(d), the law
grants civil remedy for intentional violations - the willful fraudulent and abusive practice
of government funded healthcare services argued.
71

!

Both the screening service and STCF certifying physicians may be fully penalized under
NJ’ Uniform Enforcement Act (UEA) N.J.S.A. §§ 45:1 - 21(b) and (o) for fraud,
deception misrepresentation.

NJ Consumer Fraud Act remedies Clara Maass’ unconscionable fraudulent practices of
the STCF’ 2-step program to force drugs under N.J.S.A. §§56:8-2; 56:8-3.1; 56:8-13;
56:8-14 and 56:8-15.

Under State guides of C.2A:32C-1 through C.2A:32C-17 adopted from 31 U.S.C. § 3729
et seq. plaintiff seeks treble compensatory award totaled from each count of false claims
and the bills of each defendant plus 4 times the compensation award in punitive damages
from each defendant and further uncapped punitive damages from the screening service
under 42 U.S.C. §§ 1981 and 1983.

The Court in State Farm Mutual Ins. Co. v. Campbell. 538 U.S. 408, 425 (2003) leaves to
the courts’ discretion an increase of this suggested punitive award guide; given the
history of unchecked perpetration of False Claims violations by defendant, RWJ
Barnabas Health, plaintiff asks an additional punitive award of four times the daily
charges for each day at defendant’ STCF. (Calculated from Ex. 12 c.)

FURTHER relief is sought where, in addition to the proposed measures to prohibit
continued False Claims conduct and public safety compromises by defendant RWJ
Barnabas Health, Inc., this complaint asks for a suspension of defendant, St. Joseph’s
State funds for its screening service pending the facility’s compliance with measures to
72

3

be put in place by a designated Consumers Protection Task Force to manage
implementation of regulations for competent services accountability that may withhold
government funds from the' service provider pending standard compliance assessed in
measured timeframe of service, with unannounced check periods to better ensure ongoing
compliance.

1. Damage Total
Under the guides of C.2A:32C-1 through C.2A:32C-17 adopted from 31 U.S.C. § 3729 et
seq. plaintiff seeks treble compensatory award totaled from each count of false claims
and the bills of each defendant plus 4 times the compensation award in punitive damages
from each defendant and further uncapped punitive damages from the screening service
under 42 U.S.C. §§ 1981 and 1983.

a. FROM St. Joseph’s. Screening Service treble damages in,
$5,500 for each false and falsified statement of the perjured certification
WHERE defendant claimed:
1) Plaintiff was brought to ER by the PD

$5,500.

2) Psychiatrist, Dr. Taylor, “personally examined plaintiff

$5,500.

3) “[Plaintiff] Patient reportedly limits her use with the phone/email due to paranoid
thoughts.”------ $5,500
4) “[Plaintiff] is not eating, sleeping or taking care of self.”

$5,500.

5) “[Plaintiff] is in need of an acute inpatient setting to stabilize her mood thought
and perception to increase her insight and judgment.” 73

$5,500.

6) Plaintiff “suffers from a mental illness as defined in section 1 of [the certification]
form.

$5,500.

7) Plaintiff ‘if not committed, would be a danger to self and/or others or property by
reason of mental illness in the foreseeable future” -

$5,500

8) Plaintiff suffers from the mental illness of bipolar disorder. — $5,500.
9) ‘[Plaintiff] is violent’ in deliberate omission of the material fact of caller to police
retraction of plaintiff having threatened her with a knife.
Further, from p.6 of Ex. 4a - defendant’s certifying statements,
10)Each of the ten (10) listed “Not Appropriate” statement—$5,500 per
statement = 55,000.

Total: $104,500 x 3 =$313,500.
PLUS
Bills generated from St. Joseph’s False Claims frauds:
St. Joseph’ Health

$378.66 (Ex. 8i)

St. Joseph’s Health

$487.62 (Ex. 8ii)

St. Joseph’s Regional Medical Center

$5,401.00 - (Ex. 8iii)

Imaging Subspecialists of North Jersey.

$30.00 - (Ex.9)

St. Joseph’s Healthcare, Inc.

$167.00-(Ex. 10)

Pulse Medical Transportation

$135.00-(Ex.ll)

Total: $6,599.28 x 3 = $19,797.84
PLUS
False Imprisonment penalties of

$5,500
74

$5,500.

Malpractice penalties of at least

$5,500.

-Total of $11,000
Compensatory damage total, - $344, 297.84
PLUS
Punitive damage of four times above total: ~ $344,297.84 x 4 =$ 1,377,191.36
Plus furtherfederal punitive damages of double penalty or the total added to itself.
So that, $344,297.84 + $1,377,191.36 = $1,721,489.20 x 2 yields the total from this
defendant.
Wherefore,
Total from this defendant = $3,442,978.40

b. FROM RW.T Barnabas Health. Inc. Short Term Care Facility treble damages in,
$5,500 for each False Claim violation of a fraudulent claim / a false or falsified statement
WHERE defendant claimed,
1) “[Plaintiff] is paranoid of technology”

$5,500.

2) Plaintiffs ‘Association and Thought Process is “illogical”’. — $5,500.
3) Plaintiff ‘Insight and Judgment is “severely impaired”’

$5,500.

4) Plaintiff “suffers from a mental illness as defined in section 1 of [the certification]
form”

$5,500.

5) Plaintiff ‘if not committed, would be a danger to self and/or others or property by
reason of mental illness in the foreseeable future”. — $5,500
6) Plaintiff suffers from a schizoaffective disorder.
7) Plaintiff is in need of lithium.---- $5,500.
75

$5,500.

8) Plaintiff is in need of Haloperidol(Haldol) 3 times a day

$5,500.

9) Plaintiff is in need of Benzotropinine (Cogentin) 2 times/day —$5,500.
10)Each of the ten (10) listed “Not Appropriate” statement-$5,500 per
statement = 55,000.
Total: $104,500 x 3 = $313,500.
PLUS
Bills generated from RWJ Barnabas Health False Claims frauds:
BHMG - CMMC Behavioral

$2,650.00-(Ex. 12 c)

RIVERBANKINPT MED ASSOC, LLC

$445.00 - (Ex. 13)

Clara Maass Medical Center:RWJBamabas Health....$44,478.00 - (Ex. 14)
LIVINGSTON PATHOLOGY ASSOCIATE

$60.00-(Ex. 15)

Total: $47,633 x3 = $142,899
PLUS
False Imprisonment penalties of

$5,500.

Malpractice penalties of at least —

$5,500.

-Total of $11,000.
Compensatory damage total, - $467,399.
PLUS
Punitive damages offour times the above compensation total and daily charges for each
day at the facility (calculated from Ex. 12 c):
$467,399 x4 + $2,650 x4 = $1,869, 596 + $10,600 =$1,880,196
76

Punitive damage total from this defendant therefore, $467,399+ $1,880,196 =
$2,347,595.00 and further federal punitive damages of double penalty or the total added
to itself yields a total from this defendant of $4,695,190.00

c. Damage total sum, $3,442,978.40 + $4,695,190.00 = $8.138,168.40

JUDGMENT DEMAND

WHEREFORE, plaintiff s judgment demand is, $8,138,168.40 plus additional costs for
bringing this action and the Court prescribed percentage of the government recovery.

I declare under penalty of perjury that the forgoing is true and correct.

DATED:

20th

August 2019

Respectfully submitted,
ZOE AJJAHNON, PRO SE

Zroe Ajjalmon, Pro Se Plaintiff

77

f

Pro Se, Plaintiff
ZOE AJJAHNON, Pro Se
110 Chestnut Ridge Rd.,
Montvale, NJ 07645
Ph.: 973-949-4773
Email:zoeloi@aol.com
20th August 2019

OFFICE OF THE CLERK
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY NEWARK
Martin Luther King Jr.
Federal Building
50 Walnut St.,
Newark, N.J. 07102
By Hand

Re.: Starting a False Claims Act with Civil Rights Violations Civil Action:
Complaint Zoe Ajjahnon v. St. Joseph’s University Medical Center, &
RWJ Barnabas Health, Inc.

Dear Clerk of Court:
Enclosed is an original and two copies of the Complaint and appended material evidence
of the exhibits.
I am seeking IFP status for these proceedings; the application is enclosed.
Concurrent with this filing as to Rule 4(d) 4 a copy of the Complaint with appended
exhibits is filed at the Office of the U.S. Attorney General via Electronic Mail.
ex_agserviceSOBO@jmd.us.doj.goyand Via Certified Mail Return Receipt Requested.

Sincerely,
Z'Zoe Aj^fnnon

Pro Se Plaintiff
ZOE AJJAHNON, Pro Se
110 Chestnut Ridge Rd.,
Montvale, NJ 07645
Ph.: 973-949-4773
Email:zoeloi@aol.com
20th August 2019
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
950 Pennsylvania Ave.,
Washington, D.C. 20530-0001

Via Electronic Mail. ex_agserviceSOBO@jmd.us.doj.gov

Re.: Re.: 31 U.S.C. § 3730(b)(l)False Claims Act Civil Action
Complaint. Zoe Ajjahnon v. St. Joseph’s University Medical Center &
RWJ Barnabas Health, Inc.
Dear OAG:
This qui tam fraud case involves the New Jersey’ largest healthcare provider - also
distinguished as the State’s highest qui tam fraud payer. RWJ Barnabas Health, Inc.’s
history is eventful for False Claims penalties of more than $260 million in 2006 and over
$6 million in 2010 from two of its providers before they merged in 2016.
This case is of continued and egregious False Claims activities by this provider - and of
the risks it poses to about 5 million people or 14 the State’s population; and with
codefendant, St. Joseph’ Medical Center, the matter concludes False Claims Acts by
both. The current damage total is $8,138,168.40
The Complaint proposes some measures aimed at reducing waste of government funding
by preventing the kinds of fraud and abuse seen in this matter, in the first place.
Sincerely,
'2#O' /tf-ffiZzAjts&Hs
^Zoe Ajjahnon

